<html>
<title> - ENERGY AND WATER DEVELOPMENT AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                          BUREAU OF RECLAMATION

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
      PART 5--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2012
                                                                      ?

                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
                                    
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                          BUREAU OF RECLAMATION

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 71-034                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

                              ----------                              --
--------

                                          Wednesday, March 9, 2011.

          U.S. ARMY CORPS OF ENGINEERS FY 2012 BUDGET REQUESTS

                               WITNESSES

HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS
LIEUTENANT GENERAL ROBERT VAN ANTWERP, CHIEF OF ENGINEERS, U.S. ARMY 
    CORPS OF ENGINEERS
    Mr. Frelinghuysen. I would like to bring the meeting to 
order. Thank you all for your patience. Good afternoon, 
everyone.
    Our hearing today is on the Fiscal Year 2012 budget request 
for the Civil Works Program for the U.S. Army Corps of 
Engineers. I would like to welcome our witnesses:
    Assistant Secretary of the Army for Civil Works Jo-Ellen 
Darcy, thank you for being here.
    Chief Engineer Lieutenant General Robert Van Antwerp, thank 
you.
    Mr. Loew, Major Grisoli, thank you as well.
    General, I understand your tenure as chief comes to an end 
in May so this likely will be your last hearing with us. I 
wanted to thank you for your service to our nation and the 
Corps. You have performed your duties admirably. The motto: 
Duty, honor, country, comes to mind, and you have lived it.
    So, too, the committee would also like to salute others of 
you in uniform, and those civilian Corps employees (all 
volunteers), for your key roles in the War on Terror supporting 
construction and combat efforts in Afghanistan and Iraq. While 
civil works are this committee's prime focus, we are all 
mindful of your service and thank you for it.
    As I mentioned at our hearings last week, I want everyone 
who appears before this subcommittee to understand that it is 
highly unlikely there will be any new funding in fiscal year 
2012 for our subcommittee. Our subcommittee must do its part to 
reduce spending and bring down our deficit.
    However financially limited, we must find the right balance 
of investments into our most critical infrastructure needs, 
with an eye towards those that protect our nation, and support 
and improve our economy, and yes, provide jobs!
    I firmly believe that the projects and activities 
undertaken by the Corps of Engineers fall into this category of 
spending necessary for a robust and thriving economy. A 
centerpiece, of course, is the civil works program responsible 
for maintaining our inland and coastal waterways in support of 
navigation. In 2009 alone, U.S. ports and waterways handled 
more than 2.2 billion tons of cargo, including more than 1.15 
trillion dollars in foreign commerce as well as 16 percent of 
all domestic freight.
    At the same time, this year, the Administration proposes to 
divert the harbor maintenance tax revenues--collected for the 
very purpose of dredging these waterways--to other uses. I 
don't see how diversions of this magnitude will support the 
President's focus on American competitiveness or his goal of 
doubling exports by 2015 and keep our ports and waterways 
dredged.
    The President's budget request before us today represents a 
$298 million, or 6 percent, cut from the fiscal year 2011 
Continuing Resolution level. Historically, the Administration's 
budget request comes in lower than the level for the year 
before and Congress takes on the task of finding the additional 
funds necessary to meet our nation's water resources needs.
    In these times of focusing on cutting such additional 
means--not increasing--spending, it will be much more difficult 
for Congress to find any additional money for the Corps. That 
makes it even more important for Congress to understand how the 
Administration prioritizes Corps projects. This hearing will 
hopefully aid in that process.
    Again, I'd like to welcome our witnesses to the 
subcommittee. Secretary Darcy, please ensure that the hearing 
record, questions for the record, and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than four weeks from the time you 
receive them. Members who have additional questions for the 
record will have until close of business tomorrow to provide 
them to the subcommittee office.
    With that, I'll turn to Mr. Pastor for his opening 
comments.
    Mr. Pastor. Good afternoon, Mr. Chairman. Thank you very 
much.
    Good afternoon. Ms. Darcy, welcome. It is good to see you 
again; I appreciate your time here today.
    General Van Antwerp, I would associate myself with the 
Chairman's comments. We all very much appreciate the leadership 
you've brought to the Corps. I'd like to point out to those who 
don't know--your service to the nation is especially notable 
because you could have retired 3\1/2\ years earlier had you not 
accepted the challenge to lead the Corps. I'm not sure that 
everyone in that position would have chosen the path you took, 
but I'm glad that you are heretoday.
    To the matter at hand, the Corps 2012 budget request.
    The Congress has historically appropriated funds for the 
Corps in excess of the budget request--adding an average of 
$450 million each year over the last 17 years--and the 
Administration has historically asked for less than what is 
necessary knowing that Congress would pick up the slack. As the 
Chairman noted, this has happened regardless of the party in 
either branch of government.
    The budget situation that we find ourselves in today is 
different from any other in recent memory--constrained funding 
and no congressional earmarks. Today we consider an agency 
budget that has been characterized as nothing more than a 
collection of earmarks. In this case, they are Presidential 
earmarks, but they are earmarks none-the-less.
    The Chairman has noted in every hearing this year that it 
is highly unlikely that any agency will receive funding in 
excess of the budget request. I am concerned that the 
circumstances of the new budget reality have not yet caught up 
to the Administration's budget process for the Corps. Ms. 
Darcy, I do not expect, nor do I want, you to follow in Mike 
Parker's footsteps, but I fail to see how this budget request 
meets the nation's needs for water resource infrastructure.
    I understand that the Administration had to make difficult 
choices in a constrained fiscal environment, but providing 
adequate and efficient navigation channels and flood control to 
the nation are vital to our economy, and are a factor in 
maintaining and adding jobs. We will have to make difficult 
choices as a nation to reduce the deficit and everyone will 
have to do their part. Though I think, perhaps more than an 800 
million dollar reduction from 2010 may be a little more than 
what should be the Corps' share.
    Investing in our future must not be sacrificed in the 
pursuit of fiscal austerity. As we saw on the gulf coast, the 
costs of rebuilding after a disaster far exceed the cost of 
prevention, and maintaining our marine navigation system is a 
necessary condition for the imports and exports that drive our 
economy. This budget request does not provide the resources 
necessary for these objectives.
    Ms. Darcy, General Van Antwerp, I will be interested today 
in hearing your defense of the choices made in the Corps' 
budget request, current execution and overall Corps management.
    Thank you, Mr. Chairman for the time.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    I am very pleased that the full committee chairman is here, 
Chairman Hal Rogers from Kentucky.
    And I welcome you. Thank you. I know you have some remarks. 
I suspect you have some questions. And I would like to yield 
the floor to you. Thank you for being with us.
    Mr. Rogers. Thank you, Mr. Chairman.
    And congratulations on your selection to chair this 
important subcommittee. I know you will do a great job, as you 
have done in the past.
    Welcome to all of you for being here with us. This is a 
truly historic time. I don't need to tell you that the nation 
is finding itself at a crossroads. Over the last 2 years, we 
have increased discretionary spending by 24 percent. If you 
include stimulus funding, it has been increased by 84 percent. 
We find ourselves now in the red; for the year, it looks like 
around $1.7 trillion. We are borrowing 42 cents of every dollar 
we spend. So we have truly reached not just a crossroads but I 
think a crisis.
    So we have got to get serious about reducing spending and 
putting a dent in our record setting deficit. I think we can 
all agree with that.
    We have got some tough choices ahead of us. We look forward 
to hearing from you today about the Administration's 
priorities. I am pleased that the budget contains $132 million 
for ongoing repairs to Wolf Creek Dam in my congressional 
district. But I have got to state my dismay after continued 
delays and cost overruns that have been a perennial challenge 
where this project is concerned. The resultant drawdown at Lake 
Cumberland by 40 feet has wrought havoc on the economies of the 
surrounding counties. That lake, as you know, is 100 miles long 
and covers a lot of economic ground.
    Corps decisions have virtually shuttered some marina 
operations, jeopardized the livelihoods of their employees 
throughout the region, not to mention ancillary tourism-related 
businesses, like the houseboat manufacturing industry, which is 
practically gone.
    I need two more hands to count the number of times Corps 
officials have committed to raising that lake back to historic 
levels. And yet 5 years later, here we are behind schedule and 
over budget. We were told at the outset this might take a 
couple of years. We are into year 5 now and way over budget.
    So I am extremely interested in hearing your take and 
hoping for your commitment to getting this important dam safety 
project back on track. But I am not going to hold my breath as 
I have in the past.
    I also look forward to obtaining your thoughts on the 
Corps' regulatory responsibilities under section 404 of the 
Clean Water Act. Your budget request includes a $6 million 
increase for that purpose, but I have to ask myself whether 
this truly will make a difference. For months, dozens of mining 
permits have been held up in the so-called Enhanced 
Coordination Process with the EPA. Since 2009, in my 
congressional district, the Corps has issued two individual 
permits; 190 were requested. You issued two. Two years, two 
permits.
    So what is so enhanced about that process? These delays are 
costing my people their jobs. It is costing the nation a lot of 
energy. More than half of our electricity is produced by that 
coal; 92 percent in Kentucky. And yet here we are. You have 
approved two permits.
    Under the law, the Corps is the lead agency for issuing 404 
permits. You all have been in this business for decades. And 
yet now you have capitulated, in my judgment, to the 
politically driven regulatory agenda of an out-of-control EPA. 
The common perception in my region is that the Corps is simply 
being steamrolled. And I, along with Congresswoman Capito, 
introduced legislation yesterday that would limit the EPA to a 
60-day review period of your permit recommendations. No longer 
would they be allowed to sit there interminably on your 
recommendations, in effect vetoing one that you would approve. 
Procedure and control of substance. We want to end that. I am 
anxious to hear your thoughts on whether such a change to 
section 404(c) would expedite the permit review process and 
eliminate this backlog that is killing jobs in Kentucky and 
across Appalachia.
    With that, Mr. Chairman, thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I think the chairman would like a response, but maybe, 
Madam Secretary, you could give your remarks. I would recognize 
you. Thank you.
    Ms. Darcy. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee, thank you for the opportunity 
today to present the President's Fiscal Year 2012 budget for 
the Civil Works Program of the Army Corps of Engineers. I will 
summarize my statement and ask that my complete statement be 
included in the record.
    The budget requires new appropriations of $4.63 billion. In 
keeping with the Administration's program to put the nation on 
a sustainable fiscal path, this is $836 million or about 15 
percent below the 2010 enacted amount of $5.445 billion. It is 
about 6 percent below the 2011 budget for Civil Works.
    The budget concentrates funding primarily in the three main 
Civil Works programs: commercial navigation, flood and coastal 
storm damage reduction, and aquatic ecosystem restoration. The 
2012 budget continues the Army's commitment to a performance-
based approach to budgeting in order to provide the best 
overall return from available funds in achieving economic, 
environmental, and public safety objectives.
    The budget provides $50 million for a comprehensive levee 
safety initiative to help ensure that Federal levees are safe 
and to assist non-Federal entities as they address safety 
issues with other own levees. The Operation and Maintenance 
Program also includes a new environmental and energy 
sustainability program to reduce energy consumption at Corps 
projects and buildings.
    The 2012 budget places priority on collaboration with other 
Federal agencies in the development of funding allocations for 
aquatic ecosytem restoration. In 2012, this collaboration is 
reflected in five ecosystems: the California Bay Delta, the 
Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast. The budget provides for use of $758 million from the 
Harbor Maintenance Trust Fund to maintain coastal commercial 
navigation channels in harbors.
    The Administration plans to develop legislation to expand 
the authorized uses of the Harbor Maintenance Trust Fund so 
that its receipts are available to finance the Federal share of 
other efforts in support of commercial navigation through the 
nation's ports. No decisions have been made yet on what 
additional costs would be proposed to be paid from the Harbor 
Maintenance Trust fund.
    Inland waterways capital investments are funded in the 
budget at $166 million, of which $77 million is financed from 
the Inland Waterways Trust Fund. This is the total amount that 
is affordable in 2012 with the current level of revenue coming 
into the trust fund. The administration plans to work with 
Congress and stakeholders to authorize a new mechanism to 
increase the revenue paid by commercial navigation users of the 
inland waterways.
    The Administration also plans to work with Congress and 
stakeholders to explore ways to support broader 
recapitalization of the Corps' aging infrastructure, 
modification of its operations, or deauthorization as 
appropriate, consistent with modern-day water resources 
principles and priorities.
    Last year, President Obama established the America's Great 
Outdoors Initiative to promote innovative community level 
efforts to conserve outdoor spaces and to reconnect Americans 
to the outdoors. The Civil Works Recreation Program is closely 
aligned with the goals of America's Great Outdoors Initiative 
and includes a variety of activity to reconnect Americans, 
especially our young people, with the nation's outdoor 
resources.
    We continue to strengthen the Corps' planning expertise, 
including through greater support for our Planning Centers of 
Expertise and continued support for the development of revised 
water project planning Principles and Guidelines. A number of 
lower-priority programs and activities received reduced or no 
funding in the 2012 budget. For example, funding for 
maintenance of navigation harbors and waterway segments that 
support little or no commercial use is reduced by about half. 
Also, no funding is provided for small projects in several of 
the Continuing Authorities Programs. The budget proposes to 
reprogram $23 million of prior year funds from these lower-
priority programs to finance ongoing phases of projects in 
higher priority Continuing Authorities Programs.
    In summary, the President's 2012 budget for the Army Civil 
Works program is a performance-based budget. It supports water 
resources investments that will yield long-term returns to the 
nation.
    Mr. Chairman, and members of the subcommittee, I look 
forward to working with you in support of the President's 
budget.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1034A.001
    
    [GRAPHIC] [TIFF OMITTED] T1034A.002
    
    [GRAPHIC] [TIFF OMITTED] T1034A.003
    
    [GRAPHIC] [TIFF OMITTED] T1034A.004
    
    [GRAPHIC] [TIFF OMITTED] T1034A.005
    
    [GRAPHIC] [TIFF OMITTED] T1034A.006
    
    [GRAPHIC] [TIFF OMITTED] T1034A.007
    
    [GRAPHIC] [TIFF OMITTED] T1034A.008
    
    Mr. Frelinghuysen. Thank you for your testimony.
    General Van Antwerp.
    General Van Antwerp. Thank you, Mr. Chairman and 
distinguished members of the subcommittee, Mr. Rogers.
    I am honored to be here today to testify with Ms. Darcy. If 
you would permit me, I would like to just introduce the 
commanders behind me so you know where they are from.
    Mr. Frelinghuysen. Let me, for the record, it is Major 
General Grisoli. I apologize. The record shall so stand.
    General Van Antwerp. Major is a very good rank. We like 
that, too.
    I would just like to introduce the Commanders behind me. We 
have nine divisions in the Corps of Engineers. We have eight of 
the Commanders behind us. The ninth, who is not here, is the 
Commander of the Transatlantic Division, Major General Ken Cox. 
They do all military overseas. That is why he is not here.
    If you could just raise your hand. This is John Peabody. He 
is with the Lakes and Rivers Division, Major General John 
Peabody. Major General Mike Walsh, he is with the Mississippi 
Valley Division. He has Katrina recovery and some of those big 
efforts. This is General Duke DeLuca. He is out of the North 
Atlantic division in New York. This is General John McMahon 
with the Northwest Division out on the West Coast in the great 
Northwest. And then off to my left, your right, is Major 
General Todd Semonite. He is with the South Atlantic Division 
out of Atlanta, Georgia. Then we have Colonel Ed Kertis out in 
Hawaii, the Pacific Ocean Division, and he is doing a lot of 
great things in the Pacific, to include about a $12 billion 
program in Korea, which is little known but is a great effort 
for us. This is Colonel Bill Leady. He is the Commander of the 
South Pacific Division. And then on his left is Brigadier 
General-Select Tom Kula, who is the Commander of the Southwest 
Division of the Corps of Engineers. Bill is with South Pacific, 
if I didn't mention that.
    That is our eight division teams here. Who is doing the 
work while these guys are up here? Well, they have great 
districts. We have 45 districts in the Corps of Engineers that 
do the heavy lifting for the Corps. The program is about $40 
billion altogether, counting Military Programs.
    The fiscal year 2012 Civil Works budget is a performance-
based budget, focusing on projects and activities that provide 
the highest net economic and environmental returns or direct or 
address significant risks to human safety. The budget funds 92 
construction projects, including 55 flood and storm damage 
reduction projects, 3 of which are budgeted for completion this 
year; 16 commercial navigation projects; 19 aquatic ecosytem 
restoration projects. Two of these construction projects are 
new starts.
    The budget supports restoration of nationally and 
regionally significant aquatic ecosystems with emphasis on the 
Florida Everglades, the Gulf Coast, California Bay Delta, the 
Great Lakes, and Chesapeake Bay.
    The budget includes $104 million for activities in the 
Investigations Account. It funds 58 continuing studies and 4 
new studies. Funding is also included for the Water Resources 
Priorities Study, which is an evaluation of the nation's 
vulnerability to inland and coastal flooding. The budget 
supports our continued stewardship of water-related 
infrastructure. The Operation and Maintenance Program for the 
fiscal year 2012 budget includes $2.314 billion and an 
additional $131 million under the Mississippi Rivers and 
Tributaries Account. The focus is on the maintenance of key 
commercial navigation, flood and storm damage reduction, and 
hydropower facilities.
    Corps teammates continue to respond wherever and whenever 
needed to help during major floods and other national 
emergencies. The budget provides $27 million for the 
preparedness for floods, hurricanes, and other natural 
disasters, including $4 million in support of the Levee Safety 
Initiative with States, called the Silver Jackets.
    A quick update on the Corps' preparation as we look at 
potential spring flood events, and we are looking at some 
straight in the eye. Several of our Commanders have been 
involved this last week in looking at those, like Mike Walsh 
out in North Dakota. We are working with FEMA and the National 
Weather Service to monitor the high probability of spring 
flooding, especially in the great Northwest and North Central 
United States, specifically the Red River of the north, the 
upper Mississippi River, and the Minnesota River. Based on 
these projections, our commanders have already requested 
advanced planning dollars and are taking advanced measures. We 
have verified the availability of key flood-fighting materials 
already on station. They are engaging State to State, local, 
and Federal authorities, in a couple of words, I would say we 
are as ready as you can be for what is on the horizon.
    On the international front, I am very proud of our work on 
missions in Afghanistan and Iraq. Men and women from across the 
Corps, all volunteers and many of whom have served on multiple 
deployments, continue to provide critical support to our 
military and humanitarian missions. Currently we have 1,168 
Corps employees, mostly civilian, deployed to Iraq and 
Afghanistan.
    Last month, Ms. Darcy and I traveled to Afghanistan, and we 
both witnessed the amazing work that these folks are doing and 
their dedication and commitment. In Afghanistan, the Corps is 
spearheading a comprehensive infrastructure program for the 
Afghan National Army, and also aiding in critical public 
infrastructure projects.
    The Corps of Engineers is committed to staying at the 
leading edge of service to the nation. We are committed to 
change that ensures an open, transparent, and performance-based 
Civil Works Program.
    Mr. Chairman, that concludes my comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1034A.009
    
    [GRAPHIC] [TIFF OMITTED] T1034A.010
    
    [GRAPHIC] [TIFF OMITTED] T1034A.011
    
    [GRAPHIC] [TIFF OMITTED] T1034A.012
    
    [GRAPHIC] [TIFF OMITTED] T1034A.013
    
    [GRAPHIC] [TIFF OMITTED] T1034A.014
    
    [GRAPHIC] [TIFF OMITTED] T1034A.015
    
    Mr. Frelinghuysen. Thank you for your comments.
    Again, we thank you for the work of certainly those in 
uniform as well as your civilian programs, truly dedicated in a 
very hostile and dangerous environment over there. We 
appreciate it and recognize it.
    Mr. Chairman, I would like to yield to you. I think maybe 
you deserve some responses from the Corps relative to some of 
the issues you raised. I would like to yield to you 5 minutes 
or as long as you wish to do it.
    Mr. Rogers. Mr. Chairman, thank you for that kindness. I 
don't want to interfere with the regular operation of the 
subcommittee.
    But could you respond to the Wolf Creek Dam question I 
asked or points that I made? This dam was said by the Corps to 
be the biggest potential disaster we had on our hands at that 
time. I can believe that because we have already spent $600 
million on it. What can you tell us?
    Ms. Darcy. I can tell that you that in this year's 
Presidential request for Wolf Creek Dam, our request is to fund 
that to capability, which is $132 million. I understand that 
that will help both phase 1 and phase 2. We also will have to 
deal with that before we can raise the pool level. So I think 
we are looking out to 2013, but I might defer to the Chief or 
to General Peabody.
    Mr. Rogers. 2013 before what?
    Ms. Darcy. Raise the pool.
    Mr. Rogers. Back to historic levels. I have been hearing 
that for 4 years now. What makes you think I ought to believe 
this one?
    General Van Antwerp. First of all, the foundation of this 
dam is very complicated, and we are finding it is much easier, 
as in a building, to build a new one than to restore an old 
one. No question there have been serious issues and problems as 
we have looked inside that dam. And we are doing our level 
best. We have learned a lot on this. I wouldn't say hold your 
breath until 2013, but I will say we are pretty certain that we 
are going to make that date. When we talk to the local boat 
owners and others in our town hall meetings, that is what we 
are telling them, too. And we have good confidence with this 
budget that we can get there.
    Mr. Rogers. Well, I am told that the important part is what 
they call critical area one, which is apparently where the 
earthen and concrete dams meet. I gather you are going full-
blast ahead on solving the problems at that particular part of 
the dam, is that right?
    General Peabody. That is correct.
    Mr. Rogers. When do you expect to finish critical area 1?
    Mr. Frelinghuysen. For the record, General Peabody.
    General Peabody. It is the long pole in the tent. We had 
delays last year while we did slope stability studies because 
when we did the low mobility grouting in critical area one, we 
had indicators of movement/cracking. We have resolved that 
issue. We are modifying the construction technique to ensure we 
don't have slope instability or soil failure while we are 
executing the construction there. We are negotiating with the 
construction contractor for cost and time extension due to 
these delays. The critical area one will be the last element of 
the construction project that is completed. And we are 
projecting that to be December, 2013. As the Chief indicated, 
that is a soft date, but that is what our current estimates 
tell us when we will complete.
    Mr. Rogers. December of 2013. So it is really 2014.
    General Peabody. Fiscal year 2014, that is correct.
    Mr. Rogers. That is with everything happening, good.
    General Peabody. It is possible it could move back to the 
left, but that is our best estimate.
    Mr. Rogers. Well, I don't need to repeat to you the 
terrible economic problem this is causing my whole region, with 
the tourism shot to the head because of the 40-foot draw down 
of the lake; and houseboat manufacturers going out of business, 
loss of hundreds of jobs, and the marinas having the same 
difficulty. So, you know, and I have told you a thousand times 
how important it is economically what you are doing there.
    But I understand the difficulty, and I know it's a long 
lake, and it is a long dam, and it was built on caverns in the 
first place. That is another thing we could talk about one of 
these days.
    Secondly, Madam Secretary, the 404 permit process, who 
actually decides whether or not to issue a 404 permit? Is it 
you or the EPA?
    Ms. Darcy. The Army Corps of Engineers issues 404 permits.
    Mr. Rogers. Well, can you tell me why you have only issued 
two in the last 2 years.
    Ms. Darcy. In June of 2009, the Army Corps of Engineers 
entered into a Memorandum of Understanding with the 
Environmental Protection Agency and the Department of Interior 
to do what you mentioned in your opening statement, which was 
to develop an enhanced review procedure for 79 permits. And in 
doing that, it has delayed some of those permits; you are quite 
accurate on that. Some of the permits that were part of that 
enhanced program have been withdrawn. I believe that we 
currently have 26 pending permits. We just issued a permit in 
Kentucky on the 3rd of March, I believe it was, a permit for 
the Czar Mine. It is taking longer to review the permits. 
Ultimately, the decision to issue a 404 permit lies with the 
Army Corps of Engineers.
    Mr. Rogers. Well, that is all fine and good but the MOU 
that was entered into in 2009 practically handed over the 
judgment on whether or not to issue a mining permit to the EPA. 
And they have held back approving your recommendations now for 
these 2 years. They have issued two permits or allowed to be 
issued two permits out of 190 applications in the last 2 years. 
And I have got coal mines closing and people being laid off. 
And they say, why can't you do anything about the EPA and the 
Corps of Engineers? So what should I tell them?
    Ms. Darcy. Sir, we are trying to review the permits as 
expeditiously as possible. As I say, with the enhanced review 
process, it is taking longer because the consultation process 
is taking longer. Some of these permits have now gone to the 
State level, and sometimes that takes additional time.
    Mr. Rogers. Enhanced review process is an accurate 
description of what is happening because you have practically 
stopped issuing permits. So companies that mine coal are 
shutting down, moving out, laying off people, and they stop 
buying local products. That is a huge, huge impact on my 
district, which has at least 20,000 direct employees in mining, 
with another 150,000 probably in indirect work around coal 
mining. This Administration, I think, has decided to shut down 
Appalachian coal mining. I don't understand that. Can you help 
me with that?
    Ms. Darcy. Sir, the enhanced permit review process is 
designed or the intent of it is to have stricter environmental 
review on some of those permits. It is not designed to shut 
down coal mining. It is designed to improve the environmental 
output from the coal mining.
    Mr. Rogers. Well, Lisa Jackson has taken over the Corps of 
Engineers; the EPA.
    Ms. Darcy. We are, as I said, in an agreement with the EPA 
and the Office of Surface Mining at the Department of Interior 
to review these permits.
    Mr. Rogers. It isn't an agreement. It is a surrender. I 
think you have surrendered to the EPA on issuing permits. And 
that is sad. And we will find a way to correct it. But you are 
making it awful difficult.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Somewhat apropos to the chairman's remarks, I have a few 
questions for you.
    Madam secretary, your budget request seems to place a very 
high priority on environmental projects, especially within the 
Investigations Account, where the only new starts and the only 
completions are environmental projects. How did the Corps 
determine that these new starts for environmental projects were 
a higher cost benefit return to taxpayers than a construction 
project like the Chickamauga Lock?
    Ms. Darcy. Within----
    Mr. Frelinghuysen. Which in this committee we had quite a 
focus on over the last 10 years. Having been there, I am 
familiar with that project.
    Ms. Darcy. Yes, sir.
    Within our priorities for our budget, we consider each of 
our mission areas, including navigation, flood and storm risk 
management reduction projects, as well as environmental and 
ecosytem restoration projects. Our ecosytem restorations 
projects are viewed as helping to correct some environmental 
impacts from a Corps project.
    So, in doing that, we evaluate each of the projects within 
their project mission area, weigh them against other competing 
uses and other competing interests, and make our decisions 
based on that. In this budget this year, the two new starts, as 
you mentioned, one is--both of them we consider also have to 
have impacts on risks to life and safety issues because they 
are also flood risk management and reduction projects.
    Mr. Frelinghuysen. By what criteria do these environmental 
projects rank higher than dredge deepening projects, which are 
all about bringing in cargo to our ports and are all about jobs 
and the economy?
    Ms. Darcy. As I said, within each of our mission areas, we 
take a look at all of the projects that are out there and 
determine within that area which of those meet the criteria. In 
the construction account they have to meet a 2.5 or better 
benefit-to-cost ratio. And within the funds that we have, we 
make determination of the priorities within that group of 
projects.
    Mr. Frelinghuysen. So why do the environmental projects 
seem to be your primary focus? We have about a $60 billion, $79 
billion, $80 billion backlog here. With all due respect, we 
ought to be focusing on making sure that we have navigable 
rivers, ports. Why this shift in focus on so many environmental 
projects?
    Ms. Darcy. Sir, the Aquatic Ecosystem Restoration portion 
of our budget is about 18 percent of our budget this year. I 
would not characterize it as a shift. It is a priority, along 
with our navigation mission as well as our flood risk 
management mission. And we also think that in these ecosystem 
restoration projects, we also are going to find other benefits, 
economic benefits, so that they are weighed that way. The 
ecosystem restoration projects are not valued or calculated in 
the same way because they do not have a benefit-to-cost ratio 
as the other projects do, such as the flood risk management 
projects.
    Mr. Frelinghuysen. Just for instance, the new Panama Canal 
lock is scheduled to open in 2014. As a country, are we ready 
to receive ships coming through the canal or actually the next 
generation of ships?
    Ms. Darcy. I think we are poised to do that. We have two 
ports right now which are being dredged to 50 feet because the 
Panamax ships, it is anticipated the largest one coming through 
the Panama Canal will need a 50-foot depth. And we have two of 
our ports, we have New York-New Jersey as well as Sacramento 
Deepwater Ship Channel in California. We also have ongoing 
studies for deepening some of our projects.
    Mr. Frelinghuysen. Where does the cost-benefit ratio relate 
to job creation and keeping, let's say, America open for 
business?
    Ms. Darcy. Well, it has the benefit-to-cost ratio.
    Mr. Frelinghuysen. Vis-a-vis these environmental 
restoration projects. We are sympathetic towards those 
restoration projects. But where is the benefit to our economy?
    Ms. Darcy. Of benefit to the economy for the ecosystem 
restoration projects, they restore the ecosystem to its 
function, its original function, hopefully. It also creates 
jobs in the projects. For example, in the Everglades.
    Mr. Frelinghuysen. So you have metrics here that would show 
that eco-restoration jobs or systems would have X numbers of 
jobs and keeping ports open for business and dredging would 
have--certainly, there must be overwhelming evidence that most 
of our ports generate tens of thousands of jobs compared to the 
type of jobs that would be involved with those types of 
restoration projects.
    Ms. Darcy. We do use a metric for each of the types of 
projects. I don't know the answer to what the number is for the 
jobs generated for ecosystem versus jobs generated for 
navigation. I would have to get back to you on that.
    Mr. Frelinghuysen. Well, I think many of us feel that a lot 
of the Corps' historic responsibilities have somewhat been 
neglected and put on the back burner in favor, should we say, 
of a new wave of environmental restoration, just speaking for 
myself.
    I am happy to yield to Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    The question asked frequently by other members is the 
continuing resolution--we have one for 2 weeks, and I guess 
next week we will deal with how long we extend it. And we 
stripped all the earmarks. In your work, and you said you have 
a lot of projects, some are about to be done and construction 
is about to terminate. Some are halfway. Some are starting. You 
have some investigations going on. What are you going to do 
with that abundance of projects that you have, and how are you 
going to deal with them?
    General Van Antwerp. I will address that first, if I may. 
First of all, during the short-term continuing resolution, we 
are continuing all projects that were funded in the prior year, 
fiscal year 2010, in this case, to accomplish either the 
budgeted scope of the work as included in the FY11 Budget or at 
the lower of the House or Senate amounts that were in the 
reports for fiscal year 2011. So we are looking at fiscal year 
2010 funding levels in fiscal year 2011, in keeping those 
projects going.
    All projects, therefore, may continue at some level, except 
for those that received zero dollars in the House and Senate 
reports in fiscal year 2011. As you know, that is one of the 
issues of funding that is over a period of years and extends 
out the projects. But we are trying to keep the projects going.
    We are also talking about what would happen if H.R. 1 would 
pass and the first priority would go to those projects that are 
in the fiscal year 2011 budget. We would continue those first. 
And then, as we had additional money, we would go to the other 
projects. There are a lot of projects that were in the ``add'' 
category in the fiscal year 2010 appropriation.
    I don't know if that answers your question.
    Mr. Pastor. It does. It gives some parameters. It is 
dependent on how much the continuing resolution is carrying an 
amount of money and how deep the cuts are. The parameters, I 
guess, that you set for yourselves that were in the 2010-2011 
reports that you are still trying to figure out, to the best of 
your ability, how much money can they sustain and be able to be 
carried?
    General Van Antwerp. Right. All of our District Commanders 
and Division Commanders, we look at the projects. We look for: 
Is there a phase that could be constructed preferably some 
usable increment? But sometimes you are not able. The worst 
case for us would be to have to button them up and close them 
down and tell the contractor to go away, if we thought we were 
ever going to come back, because that is a very expensive 
proposition.
    Mr. Pastor. Especially if you are halfway through, to 
button it up would probably cost you more or be more expensive.
    General Van Antwerp. In the long run, no question.
    Mr. Pastor. Ms. Darcy.
    Ms. Darcy. I concur with what the chief said.
    Mr. Pastor. I am sure that other members are going to ask 
on the budget so I am going to take a different tack here.
    Recently, I have been reading more on climate change. And I 
am one of the guys who believes it is occurring. From what I 
have read, it is either mitigation of the carbon footprint or 
adaptation in how we adapt to the changes that are coming. One 
of the things that several authors have pointed out is that 
Federal agencies sometimes know of the models that can be used 
and what the effect of climate change will be and what will be 
the consequences and timelines, et cetera--and that Federal 
agencies sometimes in their planning or looking to the future, 
even though they have these models, that there is a reluctance 
to adapt or an unwillingness. Or, if they do adapt, it is 
probably minimal.
    And I guess the question that I have, is the Corps looking 
at the various models, and is adaptation something that you are 
considering, especially in the coastlines and areas that may be 
diminishing in terms of as we look out to the future?
    Ms. Darcy. The Corps of Engineers is part of the 
Administration's Climate Change Adaptation Task Force. And what 
we are doing is working with other Federal agencies to see what 
each agency is doing to adapt to climate change. We, in the 
Corps of Engineers, acting through our Institute for Water 
Resources as well as our research lab down in Vicksburg, are 
doing lots of modeling to determine how we can use adaptation 
in our planning process so that when we are looking at planning 
for a project, we are looking long term at the possibility of 
sea level rise, at the possibility of storm surges as a result 
of climate change. And we are incorporating that into our 
planning process so that we are able to, within the project 
development phase, adapt it as climate change evolves.
    General Van Antwerp. One practical example of that is down 
in the New Orleans Hurricane Risk Reduction System. We are 
looking towards what the sea level rise would be while building 
the levees today, knowing that probably 25 years from now and 
then 50 years from now, we are going to have to put additional 
height onto the levees. So that is accounted for as we got the 
real estate and as we built what we have there, that it could 
be added to, with the knowledge that there will be some sea 
level rise. It is already measurable. That is on the screen.
    Mr. Pastor. I know that the Florida Everglades has problems 
currently right now. But looking to the adaptation, it is kind 
of the bridge to nowhere that a lot of the models use as an 
example. In some of the examples I have seen, basically, it 
said that even though we are investing billions of dollars for 
the restoration, if you look at the models, that all that money 
being invested is going down the Everglades because sometime in 
the future, all of that will be inundated and will all be 
underwater.
    What is your model on the Florida Everglades in terms of 
adaptation and whether or not the investment we are doing today 
is in fact a good investment?
    General Van Antwerp. I would say the investment we are 
putting in there today is a good investment. I think our models 
are showing more towards the lower end. You have a wide range. 
The gradient on the Everglades is so small, the slope is so 
small, that a small amount of sea rise does affect a large 
area, especially as you get down into the Florida Keys.
    Way off to my left is a gentleman, Dr. Jeff Holland, and he 
is our director of our Engineer Research and Development 
Center. They have extensive studies. We feel we have a good 
feel for how it is going to be. But, some of it is speculation, 
depending on snow melt and other climate change adaptations.
    We think what we are doing today is well spent and will 
have a long life, so to speak, and a good benefit of doing it. 
And that goes into our benefit-cost ratios. We take time 
factors and other factors into consideration there.
    Mr. Pastor. I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Mr. Alexander, thanks for your patience.
    Mr. Alexander. Thank you, Mr. Chairman.
    Good afternoon to all of you.
    Secretary Darcy, in response to something Chairman Rogers 
asked about a while ago, you were talking about enhanced 
reviews. Is that the result of congressional action, or was 
that a decision made inhouse?
    Ms. Darcy. It was a memorandum of understanding between the 
three agencies: the Corps, EPA and Surface Mining at the 
Department of the Interior.
    Mr. Alexander. So you can't blame that on us.
    Ms. Darcy. No, sir.
    Mr. Alexander. Talk a little bit about harbor maintenance 
funds. Tell the committee where those funds come from, what 
they were intended to be used for, what they are being used 
for. You said there was a suggestion that those funds be used 
for something else. Can you tell us a little bit about that?
    Ms. Darcy. Sure. The Harbor Maintenance Trust Fund was 
established in 1986, and it is a tax, an ad valorem tax, that 
exporters pay. Sorry, importers pay. The export tax was ruled 
unconstitutional in the Shoe case back in 19--I forget what the 
year was. But that money is collected. It goes into the trust 
fund. The purpose of the trust fund under the legislation was 
to help with navigation and maintenance of coastal channels and 
ports.
    Currently, in this year's budget, $738 million from that 
trust fund--$758, excuse me--is in the President's budget for 
that use. The balance of the trust fund goes to the general 
treasury. It is anticipated that this year we will probably 
have $1.4 billion come into the trust fund. And the President's 
budget recognizes $758 million for the purposes of maintaining 
and navigation channel. The balance of the fund, as I say, goes 
to the Treasury.
    Mr. Alexander. Okay. A couple more questions.
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Alexander. Sure.
    Mr. Frelinghuysen. It goes into the general fund. But how 
many billion dollars is in there now with the designation from 
the method of, shall we say, taxation that caused it to be 
there?
    Ms. Darcy. About $6 billion.
    Mr. Frelinghuysen. So $6 billion--if the gentleman would 
give me some leeway here--you are planning to expand, give 
other agencies the ability to come in and take some of that 
money?
    Ms. Darcy. What the Administration is considering is to 
have some other uses for that trust fund money for the ports.
    Mr. Frelinghuysen. Just for the ports?
    Ms. Darcy. The Federal share of the cost for the ports.
    Mr. Frelinghuysen. So it actually will continue to be 
dedicated to the ports and issues that relate to navigation in 
those ports?
    Ms. Darcy. Navigation and ports, as well, whatever port 
requirements there are. As I said, this is under consideration 
within the Administration. No decisions have been made. As you 
know, it will take legislation in order to change the dedicated 
purposes of the fund.
    Mr. Frelinghuysen. If the gentleman will continue to yield.
    So there aren't sufficient dredging problems out there, so 
you have to go looking for more ways to spend that money? I 
don't understand it. Surely, there is a dredging backlog. There 
is annual dredging, and then there is a variety of other types 
of dredging. Isn't there a whole backlog of things that need to 
be done across the nation, ports, rivers?
    Ms. Darcy. There is some backlog, sir, but within the 
current budget and fiscal environment, the Administration 
believes $758 million from the Harbor Maintenance Trust Fund 
should be used for those purposes.
    Mr. Frelinghuysen. I think we will be involved in helping 
you make the right decision.
    I thank the gentleman for yielding. I yield back to you.
    Mr. Alexander. I am not nearly as stupid as I look. I will 
yield to the chairman any time.
    You all know how concerned I have been, as others are, 
about where we see FEMA advancing with their flood maps. They 
are going to be drawing flood maps, we assume, in some areas as 
if the levees don't exist. We know that is going to create a 
burden for those out there that have never had to buy flood 
insurance before. Now they will be told that they have to buy. 
It is going to devalue property, personal and commercial 
property.
    Our concern is that you may take another 100 years to get 
flood maps redrawn if those levees are indeed built back up to 
what we consider they need to be, the level they need to be to 
be safe. How are you all working with FEMA and trying to help 
us solve a potential problem that I think is going to be a lot 
larger than some would like to think?
    General Van Antwerp. That is a great question. The National 
Flood Insurance Program that is administered by FEMA requires 
that you have a levee that has the ability to withstand a 1 
percent chance event or a 100-year event. And based on the 
condition of the levee and its ability to carry that load is 
whether or not it is certified for FEMA purposes. If it is not, 
the maps will be drawn as if that levee is not present.
    But we are taking a very reasonable person approach here, I 
would say, and we are working with FEMA. We have about three 
different ways, all the way down to the Silver Jackets at the 
States, where if there is a plan to get it done and we are 
starting to move in that direction, we are all going to take a 
real reasonable person approach.
    The flip side is what if it is not certified and the map is 
drawn that way and you have flood insurance, what if after 
that, you come in and build that levee back up? We are talking 
with FEMA about how quickly can we get restored for the flood 
maps so that there is credit for that.
    The important end right now is how do you get your levees 
to the condition, if they are not there already, to make sure 
that levee is recorded on the flood map and you are protected? 
But our biggest obligation is to make sure of the public safety 
and that there are not people who think they are protected at 
the 100-year event and they are not. So that is the hard part.
    Mr. Alexander. In my opinion, it is somewhat misleading to 
the public to tell someone that lives out there behind the 
levee system, okay, this levee is not safe, but if you buy a 
flood insurance premium and pay us for it, your family is safe. 
That is not right.
    General Van Antwerp. A flood premium to me does not say you 
are safe. It says that your property will be covered in an 
event. But I would move to higher ground when that water starts 
to come in. I guess that would be my approach to it.
    Mr. Alexander. I just think it is going to be a problem 
that is going to be unbelievable if we get to that point.
    One more question about dredging on the Mississippi River. 
What do you need to do the job that needs to be done now? How 
much money do you need? How much are you spending? The lower 
portion of the Mississippi River contains a lot of that dirt I 
suggested we do DNA testing on so we can tell what State it is 
coming from. We would get more help then from States up north.
    General Van Antwerp. I am going to just open this and then 
I will turn to General Walsh here, because that is his 
territory. I get a report daily on the condition of Southwest 
Pass, for instance, at my level. We are looking to make sure we 
have the 45 feet of depth; what the width is; what is the Coast 
Guard doing?
    Right now, we are in good shape. We just actually awarded a 
contract for a third dredge down there. But I will let General 
Walsh take a shot at this, if you don't mind. He is the expert.
    Mr. Frelinghuysen. General, keep it short. Then we are 
going to go to Mr. Olver.
    General Walsh. Typically, in the last 2 years, we spent on 
average about $85 million to dredge the mouth of the 
Mississippi. The project was appropriated $63 million. The 
previous 2 years we have looked at reprogramming funds from up 
river to keep the mouth open. This year, what we are looking at 
is to keep the dredging at the $63 million, working from a 
navigability perspective, so that we may not be able to get 
full width and depth, but keep the width and depth with the 
funds available.
    Mr. Frelinghuysen. Mr. Olver, thank you for your patience.
    Mr. Olver. Thank you, Mr. Chairman.
    I am trying to get my hands around this budget. As I look 
at it, you are a little over $4.5 billion. The largest single 
piece of that is for navigation purposes; maybe close to 35 
percent. There is a little bit less than a third that is 
apparently for storm damage reduction. And then, as I see it, 
there is 15 percent or so has to do with environmental kinds of 
remediations directly. I think that is the case.
    Now, navigation, we had a little bit of questioning about 
that. I am not sure it is in your testimony, but I have in 
front of me the idea that deep-draft ports move 99 percent of 
U.S. overseas trade by volume and only 64 percent by value. I 
am surprised that the value of overseas trade isn't higher than 
the percent of the trade that is moved by volume. But I don't 
want to dwell on that.
    Deep-draft ports, how deep are those? What is the minimum 
definition of a deep-draft port?
    Ms. Darcy. Forty-five.
    Mr. Olver. Forty-five feet. The question was earlier asked 
about 50-foot ports, and I think that you said it was New York 
and New Jersey, and then was it Stockton, California?
    Ms. Darcy. It is Sacramento. I misspoke.
    Mr. Olver. Are there other 50-foot ports planned, and if 
so, what ones are planned? Which ones are in your horizon, your 
already-planning horizon?
    Ms. Darcy. Let me just find my list because I have a list 
of the ongoing studies.
    I will tell you what is ongoing and what is planned.
    Mr. Olver. I well, ongoing is before planned. The ones that 
are already complete are the Sacramento and the New York-New 
Jersey. They are being enhanced--I am not sure whether I ought 
use that word any longer today--but to go along with the New 
York-New Jersey and Sacramento. What were the ongoing ones?
    Ms. Darcy. We currently have 50-foot channels at Norfolk 
and Baltimore, and the construction of New York-New Jersey will 
get us to 50 feet by 2014. So we will have three East Coast 
ports at 50 by 2014; 2014 is the date that Panama is expected--
--
    General Van Antwerp. East Coast. There are West Coasts 
ports also.
    Mr. Olver. There are other 50-foot ports already in 
operation in the West Coast. Sacramento is in the final stages?
    Oakland is 50. On the West Coast, Oakland is 50.
    Ms. Darcy. Then we have 45-foot channels currently in 
Houston, Galveston, Corpus Christi, Freeport, Mobile Harbor, 
Charleston, Morehead City, and ports located on the Mississippi 
River between Baton Rouge and the Gulf of Mexico. Delaware 
River to the Port of Philadelphia is currently under 
construction to 45 feet.
    Mr. Olver. Look, obviously, a lot of trade goes there; a 
lot of jobs go into the navigation that goes into the trade 
that comes from those locus points. I may well ask you for what 
ports are at what levels, and you could easily chart that out 
as to which ones for which levels are going to be coming down 
the road if you are successful.
    Madam secretary, in your original comments, you mentioned 
that there were three projects that you expected to complete 
this year? These were projects over the whole range of the 
things you do. Which ones were those? And that depends, of 
course, on the funding. What were the three that you had 
mentioned would be completed this year?
    Ms. Darcy. I know there are two. If you give me a minute, I 
can tell you.
    Mr. Olver. There must be somebody that has that quickly 
because I don't want to take up all my time.
    Ms. Darcy. We will provide that before we leave here today.
    Mr. Olver. All right. My question was going to be, in your 
overview, you point out that water resources infrastructure 
projects produce high economic and environmental returns. Well, 
the economic returns can come from the flood damage benefits 
and also from the navigational benefits. The environmental 
benefits come from whatever you have been doing in that 15 
percent of the budget.
    You then mentioned five major areas, which include the 
California Bay Delta and the Chesapeake Bay. I would like to 
pinpoint and ask you, because I have a sense we have lots of 
ports, and you just said so--Norfolk and Baltimore are 50-foot 
ports. They have high capacity ports. They are associated with 
the Chesapeake Bay area. And the Great Lakes, of course, 
everything that comes out the St. Lawrence Channel comes from 
some of those.
    I wonder if you could tell me what is the balance of 
environmental and economic benefits, as you see it, and maybe 
some of the description of what some of those would be for the 
Chesapeake ones and for the Great Lakes ones that are of high 
interest in what you are doing. Probably that is something the 
key people for those regions, whoever wants to answer it.
    Ms. Darcy. You specifically want to hear about the Great 
Lakes region?
    Mr. Olver. The Great Lakes and the Chesapeake Bay.
    Ms. Darcy. The question is, what benefits do we see coming 
out of those ecosystems?
    Mr. Olver. What is the balance of environmental and 
economic benefits there, and are these--would I find that, of 
your projects, your three projects or others that may be in 
stages, are actually part of a much larger group of projects 
that come out of the Chesapeake Bay and out of the Great Lakes 
region? You are not going to finish the Great Lakes program all 
at once at any time.
    Ms. Darcy. No.
    Mr. Olver. Or the Chesapeake Bay, I think.
    Ms. Darcy. The large ecosystems that you are referring to, 
we, the Corps of Engineers, have projects ongoing in each of 
those areas, and we are in collaboration with other members of 
the Administration, the Federal family, to come up with an 
ecosystem approach for those programs. For example, in the 
Great Lakes, the Fish and Wildlife Service has ongoing projects 
in that area, and what we are trying to do is maximize the 
Federal interest there by collaborating with each of the other 
Federal agencies in order to get an economic benefit as well an 
environmental benefit.
    Mr. Olver. Right. But they have their own budgets. You have 
budgets which are related to the Corps' operations that have 
economic or environmental interests. And that is the balance 
that I was really seeking to understand.
    It can't be done in a short answer, I think. I have 
probably already used my time in trying to ask the question. So 
maybe these could be answered in some form for the committee.
    Ms. Darcy. Congressman, could I just tell you the two 
completions that I couldn't find that we are budgeting for in 
this budget? One is in Crookston, Minnesota; the other is the 
Dover Dam in Ohio.
    Mr. Olver. Those are not huge projects, although the one in 
Minnesota probably has something to do with the Mississippi 
River, I take it. So these are individual projects which might 
be part of a much larger overall program.
    Ms. Darcy. Yes. I am not sure if the Santa Paula Creek is 
part of the Bay Delta or not. I would have to look to my 
Division Commanders.
    Mr. Olver. I am sorry. I didn't get a lot of information.
    Mr. Frelinghuysen. For the record, there are 92 
construction projects in the President's budget.
    Ms. Darcy. Correct.
    Mr. Frelinghuysen. And outside that we have got hundreds of 
other projects that are not in the President's budget which of 
course are of keen interest to this committee.
    Yes, Mr. Chairman.
    Mr. Rogers. There are 92 projects specified in the 
President's budget request?
    Mr. Frelinghuysen. Yes, Mr. Chairman.
    Mr. Rogers. Do you call these earmarks?
    Mr. Frelinghuysen. Certainly, I wouldn't think of it. Yes. 
They are Presidential earmarks.
    Mr. Rogers. I thought we did away with earmarks.
    Mr. Frelinghuysen. You don't get equal time.
    Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    I want to follow up somewhat along the line of questions 
Mr. Alexander asked, regarding cooperation with FEMA and flood 
maps. Mr. Alexander was referencing FEMA maps as it relates to 
levees. In Mississippi, we have those issues on the western 
part of the State; but on the Gulf Coast, we haven't found a 
levee that will keep the Gulf of Mexico out of our State yet. 
And then we have other flood mapping issues throughout the rest 
of the State that may not necessarily involve levees.
    So how does the Corps cooperate with FEMA in this flood map 
modernization project?
    General Van Antwerp. Well, our part with FEMA is we have 
some inspections that we perform, and we actually have a part 
of the program where we have Corps-built and Corps-operated 
levees. So they are also in that program. They do provide 
protection and risk reduction for people. So we are also part 
of that program. But we have about 14 percent of the levees 
that are in that category. There are many, many more levees 
that are owned and operated by the local entity. And that is 
really where the issue comes on this.
    Those where they are under National Flood Insurance 
Program, they have to meet the 100-year level of protection. 
And many of those levees do not or they did at once when they 
were built and they don't any more because of seepage problems 
or things over time that happen. Just because that levee has 
been there and been there for 50 years, there is a likelihood 
or a possibility that that levee could not be certified at what 
it was built for.
    General Grisoli. Representative, if I may offer an 
additional comment. Your question referenced, how we work with 
FEMA. I would offer we try to work with them in several ways, 
taking a look at when the mapping is due. First of all, we have 
established an interagency task force that is led by FEMA and 
with the Corps of Engineers participating to take a look at 
flood plain management, et cetera. We have intergovernmental 
efforts, where we work with the States and the local entities 
to make sure that information is out there. There was a lot of 
confusion, so we wanted to make sure that we are looking 
horizontally across the Federal Government and then vertically 
down through to the local entities to make sure they understand 
better. It is a challenge. And we are still trying to get that 
word out.
    The Silver Jackets Program also provides information to 
States so folks understand if you have a particular levee, as 
the Chief mentioned, whether it is Corps-built and maintained 
or Corps-built and locally maintained, what does that really 
mean to you as far as your responsibility as a local community 
to get your levee accredited as far as the FEMA program itself? 
We have worked very hard to work with FEMA and the other 
Federal agencies to get the information out. It is not all 
there yet, but we continue to work it.
    General Van Antwerp. My experience with them thus far is, 
if the local community has a plan and they have a funding plan 
to get it done and they know what they are going to do, that we 
are taking a very reasonable approach as a group of agencies.
    Mr. Nunnelee. Obviously, you want the flood map to be an 
accurate representation of the risk involved. But I get calls 
on a regular basis from constituents that don't feel that the 
flood map is an accurate representation of the risk involved, 
and I just don't understand what the problem is.
    General Van Antwerp. There is a forum for that. And we 
would encourage and we can go out and touch them. If we get the 
people that are saying that, we can go and touch them. Part of 
the Silver Jackets program in States was to make sure that they 
have a voice that is being heard and that has a forum. We are 
part of that. FEMA is part of that. So that we do hear those 
things. And we will investigate. Because FEMA doesn't want to 
draw a map that is not accurate. We want the most accurate. But 
we want to reflect for the public's safety benefit what is 
really there.
    Mr. Nunnelee. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    We had an excellent opportunity to view some of the labs 
over the weekend in New Mexico, and I appreciate the 
opportunity and the trip. I learned a lot.
    The Army Corps is doing an extraordinary amount of work 
here at home, but you also are doing work abroad. You have over 
1,100 employees in Iraq and Afghanistan. When do we think that 
their work is going to wrap up?
    General Van Antwerp. I will take the two big countries. 
Iraq has a December 2011 timeframe to come out, unless 
something changes between now and then.
    Mr. Fattah. Afghanistan?
    General Van Antwerp. In Afghanistan, right now the mark on 
the wall is 2014 to turn security over to the Afghan people. 
That is not an exit time, however, for us. Traditionally, if 
the Iraq experience is anything, right now we are in there 
closing bases. We have gone from over 500 bases down to 75 
bases. That is engineer work.
    Mr. Fattah. You are doing a great job. I just wanted to 
know what the timeline was.
    General Van Antwerp. The timeline is December 2011 for 
Iraq.
    Mr. Fattah. December, 2014.
    General Van Antwerp. 2014 for security turnover to the 
Afghans. That is not a pull-out date.
    Mr. Fattah. Let me move on.
    I was at the 75th anniversary meeting of the Mississippi 
Flood Control Council. The Corps has done extraordinary work 
over many, many years. And attempting to manage Mother Nature 
is a significant challenge. So, your work is deeply 
appreciated.
    However, let me focus on New Orleans. Are we going to meet 
the 100-year requirement?
    And if you could, for the committee's purposes, can you 
provide us some information in writing on the unobligated 
dollars? Are we going to meet this requirement, and when?
    Ms. Darcy. The 100-year flood protection for the city of 
New Orleans is on schedule to be completed to be able to defend 
against a 100-year flood by June 1 of this year. That is the 
beginning of hurricane season. And we are on target, on 
schedule, to be able to complete that.
    Mr. Fattah. In one of your other trust funds, I note that 
in the New Hampshire Engineering Lab you are going to be 
purchasing some property.
    Ms. Darcy. Correct. That is in the budget proposal.
    Mr. Fattah. It is in the President's budget proposal. I 
would love to get some background material on that activity 
because I am very interested in being supportive of the lab's 
work.
    Let me get closer to home. In Philadelphia, we have the 
Delaware River Basin Compact. The Federal Government is a 
member. There is no money in the President's budget for the 
Federal participation, even though there is a statutory 
requirement in the 2007 Act for the Secretary of the Army to 
make provisions. If you could take a look at that and provide 
some information to my office, that would be helpful.
    Ms. Darcy. We can do that. We serve on that Commission.
    Mr. Fattah. We get 60 percent of our water in Philadelphia 
through the Delaware River and the other 40 percent through its 
major spinoff, which is the Schuylkill River. So we have a lot 
of interest in this matter. Of the ports on the East Coast that 
you mentioned, did you say Philadelphia?
    Ms. Darcy. I didn't say Philadelphia in the 45- or 50-foot 
range, sir.
    Mr. Fattah. What range would Philadelphia be in?
    Ms. Darcy. The Delaware deepening project I believe is 45-
foot.
    Mr. Fattah. I am sorry the chairman left. This is a perfect 
example why we shouldn't assume all the wisdom----
    Mr. Frelinghuysen. The chairman is still here.
    Mr. Fattah. The chairman of the full committee. I am sorry. 
That we should not believe that all the wisdom exists in the 
executive branch. The fact that they get a chance to decide 99 
percent of the funds means that we should probably have 
retained our 1 percent ability in this committee. I think by 
working with the Corps over the years a lot has been done.
    So I want to thank you for your work. I would like to 
follow up appropriately about the Compact and about the 
Philadelphia port. I am all for returning to the time in which 
Congress would exert some authority in these matters.
    Mr. Frelinghuysen. We are going to try to exert as much 
authority as we can, given, shall we say, the new rules of the 
House relative to earmarks.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Mr. Simpson, a fellow traveler.
    Mr. Simpson. Thank you, Mr. Chairman.
    I apologize for missing your opening statements. I walked 
in on the middle of a conversation that I want to pursue a 
little more because some of these might already have been 
answered.
    Two of the accounts that I have always had a great deal of 
interest in are the Inland Waterway Trust Fund and the Harbor 
Maintenance Trust Fund. The Harbor Maintenance Trust Fund has 
funds, $5.5 billion. You are proposing to expand the type of 
activities that could be funded out of that trust fund. Do we 
know what type of activities you are talking about yet?
    Ms. Darcy. No, we are still developing that proposal, sir.
    Mr. Simpson. Do you have a plan, a 5-year, 10-year, 20-year 
plan for which harbors we are going to dredge, what dredging 
needs to be done, what the backlog is of dredging needs, and so 
forth?
    Ms. Darcy. I believe we do.
    General Van Antwerp. We know what the current backlog is. 
We know the dredging needs, as authorized today, but we have a 
number of studies ongoing to see if those ports and harbors 
should go to a greater depth with what is predicted in the 
future. We have a number of studies ongoing also.
    For instance, for a port like in New Orleans, it has a 
certain authorized width and depth. When we dredge, that is 
what we try to get to. A lot of our ports and harbors are not 
to the authorized depth or the authorized width. We prioritize, 
and we try and do the best we can with funds available.
    Mr. Simpson. Are you suggesting that we couldn't use the 
$5.5 billion in dredging? Do we have to find another use for 
it? The reason I ask this is I have noticed on this committee 
every year when we talk about dredging, particularly with 
industry folks that come in in the Great Lakes, every community 
that is located on the Great Lakes has a harbor that they want 
to dredge deeper to make them more competitive. We are 
obviously not going to dredge every port throughout the Great 
Lakes. Is there a plan on which ones we are going to dredge to 
take the deeper ships and so forth or the larger ships and that 
type of stuff, and how those connect with the railroad system 
and the highway system and other things? Is there any overall 
plan in this country of why we do what we do?
    I know you ask that of Congress all the time. I am just 
wondering if there is a plan to address--and this is the 
frustrating part to me--a lot of times, back when we did 
earmarks, we would put money in to dredge a port of whomever 
the favorite Congressman was there, not knowing whether that 
was a good investment versus the overall system or not. Do we 
have a view of where we want to be?
    I get concerned when we are taking money out of the Harbor 
Maintenance Trust Fund and using it for other purposes when I 
don't yet know what the needs are for dredging around the 
country.
    Ms. Darcy. I don't believe that we have a comprehensive 
long-term plan that you are talking about. Through our study 
process we are looking at deepening various harbors around the 
country and what those needs will be post-Panamax and what we 
should be doing. But as far as what I think you are describing, 
a comprehensive plan for the entire navigation system and what 
the future needs are, I don't believe that we have a national 
vision of what that is.
    General Van Antwerp. I would just like to add, just to make 
a slight distinction; there is deepening, which would be a new 
project to go to a deeper depth. But there is maintenance 
dredging. The Harbor Maintenance Trust Fund pays for the 
maintenance dredging part of it.
    Mr. Simpson. It doesn't do any of the deepening?
    General Van Antwerp. No.
    Mr. Simpson. Doesn't pay for any of the deepening.
    General Van Antwerp. Deepening would be a construction 
project. For example the New York-New Jersey Harbor is in this 
budget funded in the construction account to do the deepening 
of the harbor.
    Mr. Simpson. So the Harbor Maintenance Trust Fund just 
maintains current levels.
    General Van Antwerp. That is its purpose.
    Mr. Simpson. I would think we would know what the backlog 
is of maintenance requirements.
    General Van Antwerp. We know what the dredging need is for 
the authorized depth and width. We do for each harbor.
    Mr. Simpson. Do we have a total?
    General Van Antwerp. We could provide that total to you. I 
will just give an example that we looked up. Of our 59 ports 
that transport 90 percent of the U.S. commercial cargo in this 
country, we are at authorized depth and width only about 35 
percent of the time. We prioritize those. We work with 
industry. Sometimes you can be of less width if you are at 
depth, you just bring one ship in at a time instead of pass two 
in the night. Those are the considerations. They don't like to 
be out on anchorage. They want to get in. They want to offload. 
They want to load and get back and steaming. Sometimes they are 
not able to do that as efficiently because we don't have the 
width or depth.
    But we work with the industry, and we are trying to do the 
best we can with the resources we have. We know what it takes. 
We know what it would take to get all to authorized width and 
depth.
    Mr. Pastor. I was going to ask you to yield for a question.
    Mr. Simpson. Sure.
    Mr. Pastor. We are talking about the Panama Canal, and we 
give the date 2014. I heard that New York-New Jersey, I guess 
we are going to deepen it to be able to receive enhanced----
    General Van Antwerp. Not every ship that goes through the 
Panama Canal will take 50 feet of draft.
    Mr. Pastor. I understand that.
    General Van Antwerp. So every port doesn't have to be 50 
feet. But if you wanted to take a fully loaded Panamax ship at 
50-foot depth, you are going to have to have 50 feet underneath 
your keel or the waterline.
    Mr. Pastor. You also have harbors that are a lot closer to 
Panama that may have the infrastructure--Miami, Jacksonville. I 
don't know whether or not Brownsville would fall in that 
category. New Orleans. I guess my question is, what criteria 
did you use to determine New York-New Jersey as compared to 
Jacksonville, Miami, and some of those ports that are also in 
the range to receive more cargo from the Panama opening?
    General Van Antwerp. They compete using performance metrics 
which ultimately comes down to a benefit-cost ratio. It has to 
do with other modes. Once you offload ships, do they have the 
ability to handle it? What is the volume of the port now? What 
is the expected volume in that port? It isn't necessary that 
you are the closest one to the Panama Canal to be the deepest 
necessarily, because it depends on the distribution systems 
maybe coming out of that port. There are a lot of factors that 
contribute to a benefit-cost ratio.
    Ms. Darcy. Could I just add, in the deepening projects as 
opposed to the maintenance, if you want to deepen, the Corps of 
Engineers needs to have a cost-sharing sponsor for that 
additional depth.
    Mr. Pastor. The reason I ask that, I think last year, 
Miami, they were hot and heavy, and they were cost sharing. 
They were also very interested in getting traffic from the 
opening of the Panama. And I didn't hear that mentioned. 
Obviously, today they have some capacity because they are 
taking in a hell of a lot of containers coming from Central and 
South America.
    General Van Antwerp. I think Ms. Darcy hit on a very 
important point. You have to have a cost-sharing partner. It is 
not just that you want that port to go to depth. You are going 
to have to bring your share to do it. And they are very 
expensive projects.
    Mr. Pastor. Thank you.
    Mr. Simpson. Just out of curiosity, what would it take to 
put together a master plan, transportation plan, in this 
country where we connected our harbor system, our inland 
waterway system, our railroads, our highways so that we knew 
when we were lifting load limits on highways, that we were 
offloading things at a certain port, that there was rail 
transportation that could handle it and roads that could handle 
it with the weight systems and that kind of thing?
    I feel like--not because of you or anything--but because of 
what we have developed over the years that I am kind of putting 
Band-Aids on things and trying to patch together, instead of an 
overall plan where we want to be 20 years from now. What would 
it take to put something like that together? It would include a 
lot of different entities, obviously.
    Ms. Darcy. A lot of different entities, not only government 
entities but the stakeholders and the shippers and the rail, 
the barge owners. It is a major undertaking. You are exactly 
right on the way you describe it. It is having to look 
holistically at the country, not just the water transportation 
system.
    Mr. Simpson. It is fascinating--something needs to get 
done. And I don't know how to proceed with trying to develop 
something like that. I would think the stakeholders would be 
interested in that. I would like to know when I unloaded a ship 
that I brought into harbor that there would be something to 
pick stuff up, that it makes sense.
    General Van Antwerp. In some cases, it is like ``Field of 
Dreams.'' If you build it, they will come. The shippers know 
where they can go in, get offloaded quickly, have the depth, 
don't have other requirements. That can drive the system in 
some ways.
    Mr. Simpson. That would help us as an appropriations 
committee when we are deciding, well, we want to make sure we 
maintain these harbors or we want to deepen these harbors 
because of the larger ships or whatever. Right now, I kind of 
feel like we are just kind of going at it, and I am sure that I 
have got a simplistic mindset of this, but we are just going at 
it kind of haphazardly. I don't mean that to criticize what you 
are doing or anything else. But without some goal of where I 
want to be, I feel a little frustrated sometimes in how we do 
things here.
    Inland Waterway Trust Fund, broke, pretty much, right?
    Ms. Darcy. We do not have enough revenue in there to meet 
the needs.
    Mr. Simpson. The Bush Administration made a proposal to go 
to the lockage fee away from the diesel fee? The shippers 
rejected that; came back with a proposal; you rejected that. 
Where are we?
    Ms. Darcy. Where we are, sir, is that we are committed to 
work with the stakeholders to try to come up with a funding 
mechanism to help fix this trust fund.
    Mr. Simpson. When?
    Mr. Frelinghuysen. How hard are you working on that? Do you 
have a group put together on this?
    Ms. Darcy. We are setting up a meeting--we haven't set it 
up yet, but we have reached out to the industry. We recognize 
the fact that the mechanism currently is not funding 
efficiently or going to meet the needs, and we need to address 
it.
    Mr. Simpson. Would it be helpful to have language in an 
appropriations bill directing this conference to occur and come 
up with a solution or a proposal for Congress to consider?
    Ms. Darcy. That is always a possibility, sir, but we are 
reaching out, as I say, to the industry right now to try to 
develop it within the Administration and the stakeholders.
    Mr. Simpson. I hope that industry understands that we are 
serious that we need a solution. Hopefully, it is a solution 
that both the government and industry can agree on. If not, it 
will be a solution that is imposed, which nobody really likes. 
So we hope you are successful in that regard. And if there is 
anything we can do to help spur that along, I would be more 
than happy to do it, I am sure.
    One last question. I appreciate the work that has been done 
on the Columbia River and the deepening projects there that 
have been finished. It has been a great success in the area. 
What about the jetties that need to be fixed in the area to 
maintain it?
    Ms. Darcy. As part of the Columbia deepening, sir? I am not 
sure of that status. I will call on General McMahon, our 
Division Commander.
    General McMahon. I am John McMahon, the Commander of the 
Northwest Division in Portland, Oregon. There is an 8-year, 
$250 million plan that is predicated on funding in 2011 to be 
determined and consequently in 2012 or subsequently in 2012, to 
begin to purchase rock, big rocks, to reconstruct the jetties 
at the mouth of the Columbia River, which there are three. This 
plan is well thought out. It is an 8-year effort. But it is 
predicated on doing some things between now and then.
    Mr. Simpson. Well, I appreciate the work you do. I know 
that the Army Corps does fantastic work, and sometimes we have 
tasked you to do things that aren't really in your scope just 
because we think you do good work. We appreciate that. And 
thanks for all you do.
    Mr. Frelinghuysen. Thank you, Mr. Simpson.
    Last year, the subcommittee, when Mr. Pastor led it, became 
aware that there were some inconsistencies across the districts 
in terms of updating the cost-benefit ratio projects. Where do 
we stand in terms of that issue, and where are we moved toward 
in terms of consistency and accuracy?
    Ms. Darcy. We identified 36 projects where the benefit-cost 
ratios had not been updated in accordance with our policies. It 
does not mean they were inaccurate. It was just that they 
hadn't been updated. So, as a result, what we have done is we 
identified which projects must have updated BCRs for the fiscal 
year 2013 budget, and we have also initiated an Engineer 
Inspector General investigation.
    Mr. Frelinghuysen. You are well prepared, I can see.
    Ms. Darcy. And to provide some feedback. We have identified 
a couple of problems. One of the problems is that the guidance 
was unclear. We are going to redo the guidance so that our 
districts and divisions will know just exactly what is 
required.
    Mr. Frelinghuysen. So without waiting for the guidance, how 
has the information you have obtained changed the way you 
formulate your budget request?
    Ms. Darcy. I am not quite sure----
    Mr. Frelinghuysen. That is not your budget for a project 
that falls below a certain BCR, even if it is 80 percent 
complete. Is there some sort of a percentage?
    Ms. Darcy. Do you mean if we discover an 80 percent 
completed project is going to fall below a certain BCR? That is 
less than unity or less than the 2.5 for this budget. I think 
that is ongoing, and we will help develop that in the guidance.
    Mr. Frelinghuysen. So, at some point here, you could 
terminate projects, too, if they didn't meet criteria, is that 
right?
    General Van Antwerp. If they fell below--basically, we have 
four levels.
    Mr. Frelinghuysen. What percentage would it be?
    General Van Antwerp. Well, right now, for a new start, the 
benefit-cost ratio required was 2.5. But we have four levels. 
Some of them have just minor things that have changed, but 
there are some of these projects where the conditions have 
changed. So those you need to go back and do a new benefit-cost 
ratio to make sure you are on target and you are properly 
prioritizing. That is really what this is about, is to make 
sure we are properly prioritizing. By fiscal year 2013, under 
the new system, all of these projects will have the BCR ratio 
done that way. The draft guidance is out. It is not like we are 
not doing anything.
    Mr. Frelinghuysen. Under the new starts and investigations 
category--I think we talked about this--you are initiating four 
new studies.
    Ms. Darcy. Correct.
    Mr. Frelinghuysen. All environmental.
    Ms. Darcy. Yes.
    Mr. Frelinghuysen. What is the criteria that you use to 
select those studies? Because there are a lot of other studies 
out there, what, 50 or 60? What were the criteria you used to 
choose those, and new ones, and we have a backlog of old ones?
    Ms. Darcy. These were selected in competition with others, 
but we selected these because we felt that they were of the 
best and the most value to the nation.
    Mr. Frelinghuysen. What do you mean by competition?
    Ms. Darcy. Well, as you said, there are many studies out 
there, many study requests, from all of our project and mission 
areas, and these were the four that were new start purposes for 
this year, were the priority for this Administration.
    Mr. Frelinghuysen. What is the criteria? We have a 
competitive process. Is there a consistent application across--
what is the criteria?
    Ms. Darcy. We look at each of the study requests and then 
base it on what we think is the ultimate value to the nation. 
In our new studies, like thosing ongoing, we need a cost-
sharing partner. We have identified partners as well.
    Mr. Frelinghuysen. Well, for the record, would you provide 
a ranking of all projects by account and program line 
considered for the fiscal year 2012 request? This ranking 
should clearly show the criteria by which the rank was 
determined. And for the record, please clearly outline the 
cutoff line below which funding was not allocated for projects.
    Can you say something about capability funding? We talked 
about it earlier.
    General Van Antwerp. The capability estimate for each study 
or project is the estimate of the most that we could obligate 
efficiently. If you added all those up, though, if we funded 
everything to capability, and it went to all these Commanders, 
it would probably overload the system. But for any given 
project, it is that amount that we could efficiently fund and 
move toward completion of that project.
    Mr. Frelinghuysen. Getting back, we haven't heard the term 
shovel-ready lately. Could you just give the committee a 
summary of what you accomplished with the stimulus money that 
you were given?
    Ms. Darcy. Sure. The Corps of Engineers got $4.6 billion in 
stimulus money. We had over 800 projects; 400 of those projects 
are complete. The other 400 are ongoing and expect to be 
completed soon. We have expended $3.1 billion of that $4.6 
billion. We have done a number of projects. As you know, the 
legislation gave us more latitude in some areas. For example, 
the legislation directed us to spend at least $200 million on 
water infrastructure, something that the Corps of Engineers and 
the Administration have not budgeted. So we were able to work 
on some of those projects.
    Mr. Frelinghuysen. Were any of those projects left stranded 
at the moment?
    Ms. Darcy. No.
    Mr. Pastor. I want to follow up on your cost-benefit ratio. 
I think last year we heard the cost of a project is reviewed 
frequently and at least on a yearly basis, so we know ongoing 
what the cost is going to be. The cost-benefit ratio was done 
periodically or a longer period of time. And in the different 
divisions, obviously, there were inconsistencies. Some 
divisions did it one way. Now you have guidance. I don't know 
what the guidance is.
    It is my belief that this is a political process. As much 
as we don't want to admit it, it is. So you can have the cost 
of the projects and the benefit. Obviously, you can use various 
models. In whatever model you use, there will be some 
subjective processes that come in. So we try to be as objective 
as we can, but obviously, the models aren't perfect and people 
are going to determine how much a particular benefit this is 
and somebody may interpret it a little bit different.
    In your answer to the chairman, especially on these 
investigations, what four were chosen and how were they chosen, 
I think there are all these cost-benefit ratios. There are 
costs and then benefits to the nation, which is pretty 
significant--I mean, pretty subjective. And so, in many cases, 
I believe the benefit to the nation is who has requested it and 
who is it at OMB asking for the project. So I don't blame the 
Corps for that. I don't blame the Corps for that.
    Mr. Frelinghuysen. You are not suggesting the system is 
political here. I mean, they are Presidential earmarks and 
House and Senate earmarks.
    Mr. Pastor. I started with that: this is a political 
process. I think every administration does it.
    General Van Antwerp. If I could clarify one thing. There is 
a difference between construction and planning. The 
construction projects that are new starts, the two in here, 
have gone through the entire process and have a benefit-cost 
ratio. A planning project, it does not have a benefit-cost 
ratio yet. It will get one later, and then it will either be 
thrown out because it is below unity or it will stay in the 
process.
    Mr. Pastor. But you can be in construction and 
circumstances change, so that the cost-benefit ratio changes. 
So, then, obviously, then you have to start making different 
determinations.
    General Van Antwerp. Generally, we would like to go to 
completion.
    Mr. Pastor. What I am saying is even if--whether you are on 
construction or investigations, the process, you can use 
different models, benefit-cost ratios, how much money the 
agency that you are dealing with is going to share the cost. I 
mean, I asked that question, why wasn't the Port of Miami 
chosen, and you said, well, cost-benefit ratio and other 
factors.
    General Van Antwerp. And other factors.
    Mr. Pastor. That is what I am talking about; the other 
factors.
    General Van Antwerp. There is a methodology on that.
    Mr. Pastor. I am not laying blame on the Corps. But in 
making these determinations, there are a lot of subjective 
factors that come in. And so it is very difficult to ask the 
agency because they probably had very little input into making 
that decision. Obviously, they gave their models. They gave 
their cost-benefit ratios, and all that. But some decisions 
basically are based on more subjective benefit to the country. 
Well, okay. Good luck in defining that one.
    So I think frankness and honesty go a long way. And I 
appreciate the answers. I am a country boy from Claypool, 
Arizona. I know the process. And sometimes we respond to your 
answers, but we understand there are other factors that enter 
that cause the determination.
    One more and then I am going to quit. But I am going to 
talk about the 404; my experience, anyway. The Corps goes 
through this process of reviewing the permit, and they pick up 
data, and they make conclusions. So the Corps is about to make 
a recommendation.
    General Van Antwerp. We also consult with the other 
agencies, too. They are in the game, too.
    Mr. Pastor. But let me get to the consulting part. 
Basically, you take the data and you have recommendations based 
on your personnel, your staff, of where it ought to go. And 
then you take it to consult. And then, obviously, there are 
other factors that other people different from the process 
begin saying, well, I don't agree with this; I don't agree with 
the data, or I don't agree with the conclusion. And then what 
happens, there is an impasse. But out here, you have people who 
are waiting for this 404 because it is time and money. And I 
guess some of the frustration that the people out here, 
including us, that we face, is that the resolution, because 
there is a difference of opinion on the data or the conclusion, 
sometimes just gets interlocked and there is no movement. I 
guess at least for me, it would be if there was a way to have 
resolution of that difference of opinion, whether it be on the 
facts or on the conclusion, because sometimes they are at 
loggerheads with the other agency and your determination, that 
things don't move, and that causes a lot of frustration.
    So I don't know, when you become deadlocked, how you deal 
with it when you did that memorandum of understanding. But that 
is a real--that causes a lot of frustration. And so questions 
you get about the 404 are usually because people have a 404 
process, and we are getting called; you know it has been a 
year, it has been 2 years. And it is interlocked and a 
difference of opinion between the two agencies that just causes 
that to not move forward.
    General Van Antwerp. Part of what we are changing and 
trying to change under enhanced review, which has been used a 
lot here, is to start consultation very early in the process. 
So those are being identified in parallel. Then, as you go to 
public forums, you are really fleshing out what the issues are 
that could loggerhead you later and try and get those resolved 
a lot earlier in the process. That is part of what we are 
trying to do. It is hard.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Mr. Simpson.
    Then we are going to wrap up after that.
    Mr. Simpson. Thank you, Mr. Chairman.
    I sympathize with Mr. Pastor. We tried to get the cost-
benefit analysis to work out for that Port of Phoenix, but we 
could just never get it. It was far too costly to get those 
ships there.
    Mr. Pastor. We will trade those big rocks from Arizona for 
some of the water in the Columbia River.
    Mr. Simpson. The Army Corps will buy them.
    A question that might seem a little strange in this 
hearing, but I am the chairman of the Interior Appropriations 
Committee. The administration has come out with America's Great 
Outdoors Initiative, one that I happen to support. Within the 
Federal Government, the Corps of Engineers is the number one 
provider of outdoor recreation. Most people don't realize that. 
I didn't realize that until I read that.
    Ms. Darcy. Three hundred seventy million visitor days.
    Mr. Simpson. That is surprising. You have proposed or in 
your budget there is a proposed 7.5 percent cut in funding for 
recreation contained within the budget request. How is that 
going to affect your ability to advocate this America's Great 
Outdoors Initiative? Will it close any parks? Where will these 
cuts come from within your recreation program?
    Ms. Darcy. The $259 million in this year's budget is about 
$21 million below fiscal year 2011. Yes, we are going to have 
to maybe close some parks. We may have to have shorter hours. 
We may have to have fewer summer hires than we usually do. But 
you are right in the recreation program the Corps of Engineers 
provides to the whole country. We have more than 422 recreation 
sites around the country. And the reason we have so many 
visitors is most of them are close to urban areas. People can 
get to them. They are part of another project--a reservoir for 
flood control--for example, but provide benefits such as 
fishing, camping and recreation.
    We are trying to highlight that. And we also recently 
developed, for the first time, a 5-year strategic plan for how 
we are going to spend our recreation dollars and where we 
should put them.
    Mr. Simpson. Do we have a priority list, if we are going to 
close parks, which ones are we going to end up having to close, 
or have we gotten that far down the road yet?
    Ms. Darcy. We have not gotten that far yet.
    General Van Antwerp. A lot of parks have multiple 
recreation areas, so we wouldn't close the whole park. We might 
close one boat ramp and keep two open. The last resort would be 
to close the entire thing.
    Mr. Simpson. I will be interested next year during this 
hearing to find out how that worked out and what the impact was 
of closing that. Because I think the administration has a good 
initiative here that I support. I just never thought about it 
that the Army Corps was the number one provider of recreation 
within the Federal Government. That is something most people 
don't think about.
    Ms. Darcy. I tell Secretary Salazar that every time I have 
a chance.
    Mr. Simpson. I will mention that to him the next time I see 
him, say, you know what I heard. Thank you.
    Mr. Frelinghuysen. On that note, I want to thank our 
witnesses for their time and the men and women who back them 
up.
    Again, General Van Antwerp, good luck in your retirement.
    I would also like to recognize Gary Loew, seated at the 
table here, retiring after 40 years of service. It is a hell of 
a long time.
    General Van Antwerp. For as young as he is.
    Mr. Frelinghuysen. On behalf of so many people who may 
never know who you are, I would like to enter into the record 
that we thank you for your dedication to obviously many 
administrations and to the people of the nation for what you 
have done. With that, we stand adjourned.

[GRAPHIC] [TIFF OMITTED] T1034A.016

[GRAPHIC] [TIFF OMITTED] T1034A.017

[GRAPHIC] [TIFF OMITTED] T1034A.018

[GRAPHIC] [TIFF OMITTED] T1034A.019

[GRAPHIC] [TIFF OMITTED] T1034A.020

[GRAPHIC] [TIFF OMITTED] T1034A.021

[GRAPHIC] [TIFF OMITTED] T1034A.022

[GRAPHIC] [TIFF OMITTED] T1034A.023

[GRAPHIC] [TIFF OMITTED] T1034A.024

[GRAPHIC] [TIFF OMITTED] T1034A.025

[GRAPHIC] [TIFF OMITTED] T1034A.026

[GRAPHIC] [TIFF OMITTED] T1034A.027

[GRAPHIC] [TIFF OMITTED] T1034A.028

[GRAPHIC] [TIFF OMITTED] T1034A.029

[GRAPHIC] [TIFF OMITTED] T1034A.030

[GRAPHIC] [TIFF OMITTED] T1034A.031

[GRAPHIC] [TIFF OMITTED] T1034A.032

[GRAPHIC] [TIFF OMITTED] T1034A.033

[GRAPHIC] [TIFF OMITTED] T1034A.034

[GRAPHIC] [TIFF OMITTED] T1034A.035

[GRAPHIC] [TIFF OMITTED] T1034A.036

[GRAPHIC] [TIFF OMITTED] T1034A.037

[GRAPHIC] [TIFF OMITTED] T1034A.038

[GRAPHIC] [TIFF OMITTED] T1034A.039

[GRAPHIC] [TIFF OMITTED] T1034A.040

[GRAPHIC] [TIFF OMITTED] T1034A.041

[GRAPHIC] [TIFF OMITTED] T1034A.042

[GRAPHIC] [TIFF OMITTED] T1034A.043

[GRAPHIC] [TIFF OMITTED] T1034A.044

[GRAPHIC] [TIFF OMITTED] T1034A.045

[GRAPHIC] [TIFF OMITTED] T1034A.046

[GRAPHIC] [TIFF OMITTED] T1034A.047

[GRAPHIC] [TIFF OMITTED] T1034A.048

[GRAPHIC] [TIFF OMITTED] T1034A.049

[GRAPHIC] [TIFF OMITTED] T1034A.050

[GRAPHIC] [TIFF OMITTED] T1034A.051

[GRAPHIC] [TIFF OMITTED] T1034A.052

[GRAPHIC] [TIFF OMITTED] T1034A.053

[GRAPHIC] [TIFF OMITTED] T1034A.054

[GRAPHIC] [TIFF OMITTED] T1034A.055

[GRAPHIC] [TIFF OMITTED] T1034A.056

[GRAPHIC] [TIFF OMITTED] T1034A.057

[GRAPHIC] [TIFF OMITTED] T1034A.058

[GRAPHIC] [TIFF OMITTED] T1034A.059

[GRAPHIC] [TIFF OMITTED] T1034A.060

[GRAPHIC] [TIFF OMITTED] T1034A.061

[GRAPHIC] [TIFF OMITTED] T1034A.062

[GRAPHIC] [TIFF OMITTED] T1034A.063

[GRAPHIC] [TIFF OMITTED] T1034A.064

[GRAPHIC] [TIFF OMITTED] T1034A.065

[GRAPHIC] [TIFF OMITTED] T1034A.066

[GRAPHIC] [TIFF OMITTED] T1034A.067

[GRAPHIC] [TIFF OMITTED] T1034A.068

[GRAPHIC] [TIFF OMITTED] T1034A.069

[GRAPHIC] [TIFF OMITTED] T1034A.070

[GRAPHIC] [TIFF OMITTED] T1034A.071

[GRAPHIC] [TIFF OMITTED] T1034A.072

[GRAPHIC] [TIFF OMITTED] T1034A.073

[GRAPHIC] [TIFF OMITTED] T1034A.074

[GRAPHIC] [TIFF OMITTED] T1034A.075

[GRAPHIC] [TIFF OMITTED] T1034A.076

[GRAPHIC] [TIFF OMITTED] T1034A.077

[GRAPHIC] [TIFF OMITTED] T1034A.078

[GRAPHIC] [TIFF OMITTED] T1034A.079

[GRAPHIC] [TIFF OMITTED] T1034A.080

[GRAPHIC] [TIFF OMITTED] T1034A.081

[GRAPHIC] [TIFF OMITTED] T1034A.082

[GRAPHIC] [TIFF OMITTED] T1034A.083

[GRAPHIC] [TIFF OMITTED] T1034A.084

[GRAPHIC] [TIFF OMITTED] T1034A.085

[GRAPHIC] [TIFF OMITTED] T1034A.086

[GRAPHIC] [TIFF OMITTED] T1034A.087

[GRAPHIC] [TIFF OMITTED] T1034A.088

[GRAPHIC] [TIFF OMITTED] T1034A.089

[GRAPHIC] [TIFF OMITTED] T1034A.090

[GRAPHIC] [TIFF OMITTED] T1034A.091

[GRAPHIC] [TIFF OMITTED] T1034A.092

[GRAPHIC] [TIFF OMITTED] T1034A.093

[GRAPHIC] [TIFF OMITTED] T1034A.094

[GRAPHIC] [TIFF OMITTED] T1034A.095

[GRAPHIC] [TIFF OMITTED] T1034A.096

[GRAPHIC] [TIFF OMITTED] T1034A.097

[GRAPHIC] [TIFF OMITTED] T1034A.098

[GRAPHIC] [TIFF OMITTED] T1034A.099

[GRAPHIC] [TIFF OMITTED] T1034A.100

[GRAPHIC] [TIFF OMITTED] T1034A.101

[GRAPHIC] [TIFF OMITTED] T1034A.102

[GRAPHIC] [TIFF OMITTED] T1034A.103

[GRAPHIC] [TIFF OMITTED] T1034A.104

[GRAPHIC] [TIFF OMITTED] T1034A.105

[GRAPHIC] [TIFF OMITTED] T1034A.106

[GRAPHIC] [TIFF OMITTED] T1034A.107

[GRAPHIC] [TIFF OMITTED] T1034A.108

[GRAPHIC] [TIFF OMITTED] T1034A.109

[GRAPHIC] [TIFF OMITTED] T1034A.110

[GRAPHIC] [TIFF OMITTED] T1034A.111

[GRAPHIC] [TIFF OMITTED] T1034A.112

[GRAPHIC] [TIFF OMITTED] T1034A.113

                                        Thursday, March 10, 2011.  

                  BUREAU OF RECLAMATION FY 2012 BUDGET

                               WITNESSES

MICHAEL CONNOR, COMMISSIONER, BUREAU OF RECLAMATION
REED MURRAY, DIRECTOR OF CENTRAL UTAH PROJECT COMPLETION ACT OFFICE
    Mr. Frelinghuysen. I'd like to call this hearing to order. 
Good morning, everyone. Our hearing today is on the fiscal year 
2012 budget request for the Bureau of Reclamation and the 
request for the Central Utah Project Completion Act (CUPCA).
    I'd like to welcome our witnesses, Michael Connor, 
Commissioner of Reclamation, and Reed Murray, Program Director 
for the CUPCA Office.
    As I have mentioned at all of our hearings this year, I 
want everyone who appears before this subcommittee to 
understand that it is highly unlikely there will be any new 
funding in fiscal year 2012 for our subcommittee. Our 
subcommittee must do its part to reduce spending and bring down 
our deficit.
    Our task this year is really no different than any other 
year, however we must find the right balance of investments 
into our most critical needs, with an eye towards those that 
protect our nation, and support and improve our economy and add 
jobs.
    It is clear that water and power remain fundamental to the 
economy of the western United States, and the Bureau of 
Reclamation's activities are critical to meeting these needs.
    Reclamation's fiscal year 2012 budget request reflects a 
reduction of 3 percent from the fiscal year 2011 Continuing 
Resolution. Within this overall funding, however, water and 
energy management activities continue to be cut 
disproportionately when compared to funding for fish and 
wildlife activities.
    Your mission clearly states your primary responsibility is 
to meet the water demands of the West while protecting the 
environment and the public's investments in these structures. 
While I have been a long-time supporter of environmental 
conservation programs, I'm not sure now is the time to be 
making this shift of priorities away from your historical 
mission of water and power.
    These tight budget times make it even more important that 
we use every dollar efficiently and effectively. The 
subcommittee will take a hard look this morning at the 
criteria--both quantitative and qualitative--used to develop 
the specifics of your budget request. We may end up agreeing 
with the Administration's decisions or we may not, but we will 
not know until we fully understand your rationale.
    Again, I'd like to welcome our witnesses to the 
subcommittee. Mr. Connor, please ensure that the hearing 
record, questions for the record, and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than four weeks from the time you 
receive them. Members who have additional questions for the 
record will have until close of business tomorrow to provide 
them to the subcommittee office.
    With that, I'll turn to Mr. Pastor for his opening 
comments.
    Mr. Pastor. Mr. Connor, Mr. Murray, welcome back to the 
subcommittee. I look forward to your testimony and thank you 
for joining us today.
    The Bureau of Reclamation is responsible for providing 
agricultural, municipal and industrial water supply in the 
West. Economies, ecosystems, and communities all rely on the 
availability of clean water. At a time when demand is 
increasing and many regions have been hit by extended drought, 
the Bureau is being asked more and more to provide solutions to 
the West's water needs while being good stewards of our natural 
resources. I hope to hear today how the fiscal year 2012 budget 
request reflects this responsibility with a reduced budget.
    Reclamation's budget request for Water and Related 
Resources is a 12 percent reduction from that of 2011. We are 
all interested in finding appropriate places to cut, and as the 
Chairman has said, it will be especially important that we 
understand the specific methodology in arriving at this 
particular set of projects and activities. I am principally 
concerned that this request does not adequately provide for two 
important programs within the Water and Related account: dam 
safety and rural water.
    Much of the Bureau's infrastructure was built nearly a 
century ago--in fact, over half of the Bureau's dams are more 
than 60 years old. It is critical that Reclamation maintain 
this aging infrastructure, and I hope today to explore how the 
budget request provides funding levels that meet the Bureau's 
responsibility to keep Americans safe while maintaining its 
dams in proper working order.
    Reclamation plays a vital role in delivering water to 
tribes and rural communities that could not otherwise access 
clean water. The rural water budget request is a significant 
cut to this activity, and today I look you, Mr. Connor, to shed 
light on how the Administration's proposal addresses our water 
supply commitments to tribes and meets the needs of rural 
communities.
    We are all interested in ensuring that every dollar is 
spent effectively and efficiently, I look forward to your 
testimony today on how Reclamation and CUPCA plan to accomplish 
this task.
    Thank you, Mr. Chairman for the time.
    Mr. Frelinghuysen. Thank you, Mr. Pastor. Mr. Connor, good 
morning.
    Mr. Connor. Good morning.
    Mr. Frelinghuysen. Thanks for being with us.
    Mr. Connor. I think I might rather be here today than 
outside.
    Mr. Frelinghuysen. Yes.
    Mr. Connor. That's a strange thing.
    Okay, thank you, Mr. Chairman, Representative Pastor, and 
members of the subcommittee for the opportunity to discuss the 
President's FY 2012 budget request for the Bureau of 
Reclamation. With me today is Bob Wolf, Director of Program and 
Budget, with respect to Reclamation's testimony.
    The 2012 discretionary request for Reclamation is 
approximately $1 billion. I have submitted written testimony, 
which presents a detailed summary of the request. Overall, the 
budget reflects a comprehensive set of actions and initiatives 
to support Reclamation's mission. The budget continues to 
emphasize working smarter to address the water needs of a 
growing population in an environmentally responsible and cost-
efficient manner, and assisting states, tribes, and local 
entities in solving contemporary water resource challenges.
    Certainty and sustainability, our primary goals with 
respect to the use of water resources, requires Reclamation to 
take action on many fronts and our budget proposal was 
developed with that principle in mind. The FY 2012 budget 
request for Reclamation focuses on six priority areas, which I 
briefly want to touch on in my remaining time.
    Infrastructure. Overall, our budget continues to support 
the need to maintain infrastructure in a safe operating 
condition while addressing the myriad challenges facing water 
users in the West. Approximately 51 percent of our Water and 
Related Resources budget, or $407 million, is dedicated to 
operation, maintenance and rehabilitation activity. These 
activities include the Dam Safety Program, Site Security 
Program, and RAX, which is shorthand for Replacement, 
Additions, and Extraordinary Maintenance.
    WaterSMART is the second priority area in our budget. We 
have established as a high priority goal, approving and funding 
actions, to increase available water supply for agriculture, 
municipal, and industrial and environmental uses in the Western 
United States by 490,000 acre feet by the end of 2012. 
WaterSMART concentrates on expanding and stretching limited 
water supplies in the West to reduce conflict, facilitate 
solutions to complex water issues, and meet the needs of 
expanding municipalities, the environment, and agriculture.
    Reclamation proposes to fund WaterSMART at $59 million in 
FY 2012. The three ongoing WaterSMART programs include the 
WaterSMART Grant Program, Basin Studies, and the Title XVI 
Water Reuse Program. In FY 2012, WaterSMART will also include 
the ongoing Water Conservation Field Services Program and a 
pilot project to initiate the Cooperative Watershed Management 
Program, which was authorized in 2009.
    Ecosystem restoration is the third priority area. In order 
to meet Reclamation's mission goals of producing power and 
delivering water in a sustainable manner, we must continue to 
focus on the protection and restoration of the aquatic and 
riparian environments affected by our operations.
    Ecosystem restoration involves a large number of activities 
including our Endangered Species Recovery programs. Simply put, 
healthy aquatic ecosystems have a wealth of benefits and are 
fundamental to Reclamation's ability to continue water and 
power operations for the benefit of our customers.
    Approximately 20 to 25 percent of Reclamation's FY 2012 
budget is allocated to activities in support of ecosystem 
restoration. This amount includes the request for operating, 
managing, and improving California's Central Valley Project. 
CVP-related funding will support completion of the Red Bluff 
pumping plant and fish screen on the Sacramento River, the 
Trinity River and San Joaquin River Restoration Programs, and 
protecting and enhancing California's Bay Delta region, an area 
that is critical to the water needs of millions of 
Californians.
    Our budget request also supports ongoing implementation of 
the Lower Colorado River Multispecies Conservation Program, the 
Platte River Endangered Species Recovery Implementation 
Program, and the Upper Colorado and San Juan River Endangered 
Fish Recovery Programs. Additionally, funding requested for the 
Columbia/Snake River Salmon Recovery Program will implement 
required biological opinion actions associated with the Federal 
Columbia River Power System.
    Finally, funding is also sought for the Klamath, Rio 
Grande, and Yakima projects to support extensive initiatives to 
improve habitat, water delivery systems, and overall operations 
to address the competing demands of agricultural, tribal, 
municipal, and environmental needs.
    Cooperative Landscape Conservation and renewable energy 
production, a fourth area of focus, are Departmental 
initiatives in which Reclamation is actively engaged. As a 
threshold matter, we are developing and implementing approaches 
to understand and effectively adapt to the risks and impacts of 
climate change on Western water management. The Basin Studies 
Program is part of Interior's integrated strategy to respond to 
climate change impacts on the resources managed by the 
department and is also a key component of the WaterSMART 
program.
    In FY 2012, the Basin Studies Program will continue West-
wide risk assessments focusing on the threats to water supplies 
from climate change and other sources. We will also continue 
responsive actions with the Department's Landscape Conservation 
Cooperatives.
    Included within Reclamation's Science and Technology 
Program is research targeting improved capability for managing 
water resources under multiple drivers including climate change 
and invasive species. Reclamation is also working in 
partnership with the Department of Energy and the Corps of 
Engineers in identifying opportunities to address the 
President's Clean Energy Goals through the development of new 
sustainable hydropower capacity as well as integrating 
renewable energy into our operations.
    A fifth initiative I wanted to discuss is a very important 
one for the Administration. Reclamation has a longstanding 
commitment to the Secretary's goal to strengthen tribal 
nations. The request includes funding for ongoing settlement 
activities such as the Animas-La Plata Project, Avogal Project, 
and other settlement needs in Arizona.
    On December 8th of last year, the President signed the 
Claims Resolution Act, which authorized four new Indian Water 
Right Settlements. The primary responsibility for developing 
water infrastructure on these settlements was given to the 
Bureau of Reclamation. Mandatory funding was provided to the 
Bureau of Indian Affairs (BIA) and Reclamation for a portion of 
the funds obligated under the Act. We anticipate that 
Reclamation will begin expending some of this mandatory funding 
in the future to work with all parties to begin implementation 
of these settlements.
    I would also note that the FY 2012 budget request also 
requests $36 million for ongoing, authorized rural water 
projects. Several projects benefit tribal nations including Mni 
Wiconi in South Dakota, the Garrison Diversion Unit in North 
Dakota, Fort Peck Reservation/Dry Prairie in Montana, Jicarilla 
Apache Reservation in New Mexico, and Rocky Boys in Central 
Montana.
    Finally, Youth Employment is the sixth area of focus. 
Consistent with the Secretary's priority for youth employment, 
Reclamation is working to engage young men and women, aged 25 
and under, in conservation careers either through internships 
with Reclamation or as part of a conservation work crew in 
conjunction with a partnering organization. Further, 
Reclamation will seek ways to expand opportunities for youth 
engagement through ongoing activities in partnerships.
    Mr. Chairman, that concludes my verbal statement. I am 
happy to answer questions at the appropriate time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1034A.114
    
    [GRAPHIC] [TIFF OMITTED] T1034A.115
    
    [GRAPHIC] [TIFF OMITTED] T1034A.116
    
    [GRAPHIC] [TIFF OMITTED] T1034A.117
    
    [GRAPHIC] [TIFF OMITTED] T1034A.118
    
    [GRAPHIC] [TIFF OMITTED] T1034A.119
    
    [GRAPHIC] [TIFF OMITTED] T1034A.120
    
    [GRAPHIC] [TIFF OMITTED] T1034A.121
    
    [GRAPHIC] [TIFF OMITTED] T1034A.122
    
    Mr. Frelinghuysen. Thank you, Mr. Connor. Mr. Murray, good 
morning. I see you are a child of this project. I see from your 
resume you started back in 1982, is that correct?
    Mr. Murray. That's correct.
    Mr. Frelinghuysen. Yeah, so we are going to learn something 
from you as to what you are up to.
    Mr. Murray. Right. I hope so.
    Mr. Chairman, Mr. Pastor, my name is Reed Murray. I serve 
as the program director of the Central Utah Project Completion 
Act Office under the Assistant Secretary for Water and Science 
in the Department of the Interior, and I am pleased to provide 
the following information about the President's fiscal year 
2012 budget request for implementation of the Central Utah 
Project Completion Act.
    The Central Utah Project Completion Act provides for 
completion of the Central Utah Project by the Central Utah 
Water Conservancy District. The Act also authorizes funding for 
fish, wildlife, and recreation mitigation and conservation, 
establishes an account in the Treasury for deposit of these 
funds and other contributions, establishes the Utah 
Reclamation, Mitigation, and Conservation Commission to 
coordination mitigation and conservation activities and 
provides for the Ute Indian Rights Settlement.
    The Department has established an office in Provo, Utah 
with a program director to provide oversight, review, and 
liaison with the District, the Mitigation Commission, and the 
Ute Indian tribe, and to assist in administering the 
responsibilities of the Secretary under the Act.
    The 2012 request for the Central Utah Project Completion 
Account provides $33 million for use by the District, the 
Mitigation Commission, and the Department, to implement the 
Act, which is $9 million less than the 2010 enacted budget.
    The decrease in funding for the 2012 budget is due in part 
to accelerated funding of $50 million provided in 2009 through 
the American Recovery and Reinvestment Act and in part to the 
Administration's effort to reduce the deficit.
    The request for the District includes $28.5 million to fund 
the design, specifications, land acquisition, and construction 
of the Utah Lake System and to implement water conservation 
measures. The request includes $2 million for the Mitigation 
Commission to implement fish, wildlife and recreation 
mitigation and conservation projects and to complete mitigation 
measures, all of which are necessary to allow for CUP 
operation.
    Finally, the request includes $2.5 million for the program 
office for endangered species recovery and operation and 
maintenance costs associated with instream flows and fish 
hatchery facilities and for program oversight and 
administration.
    This concludes my statement. I appreciate the 
subcommittee's support and this opportunity to testify before 
the subcommittee, and I would be happy to respond to any 
questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1034A.123
    
    [GRAPHIC] [TIFF OMITTED] T1034A.124
    
    Mr. Frelinghuysen. Well, thank you. Thank you both. I was 
looking over your resume, Mr. Connor, and you have been at this 
for a long time.
    Mr. Connor. I have.
    Mr. Frelinghuysen. Working for the Senate and then working 
for the Department of the Interior for a number of years, so 
you are indeed--I guess both of you--resident experts. So, I 
hope you use this opportunity to educate us.
    We spent quite a lot of time yesterday with the Army Corps 
of Engineers trying to get a handle as to how they prioritize 
the criteria that they use to move ahead with their projects, 
and as you know from your time in the Senate, there's a keen 
interest. Every member of Congress has some relationship with 
the Corps in their congressional district. And the House and 
the Senate appear to be sort of forsaking earmarks, but my 
focus initially here is to figure out from you how you 
prioritize your budget. Could you explain to the committee the 
methodology you use to determine what projects to fund and at 
what levels?
    Mr. Connor. Yes, absolutely.
    Mr. Frelinghuysen. Could you sort of give us a rundown of 
how you do it?
    Mr. Connor. Absolutely, Mr. Chairman. It is not entirely 
formulaic or an exact science with respect to our budget 
preparation, but there is a thoughtful set of criteria that we 
use to allocate between our different program areas and then 
within the program areas themselves.
    So, I think we start off primarily by looking at what is 
fundamental to operating and maintaining our facilities, the 
physical operation maintenance.
    Mr. Frelinghuysen. And you are responsible for 58 power 
plants or something, I read.
    Mr. Connor. Fifty-eight power plants.
    Mr. Frelinghuysen. And a lot of other----
    Mr. Connor. Like 476 dams, large dams, diversion dams and 
structures, canals, et cetera. In a lot of those instances we 
have contractors who are responsible for paying for a good 
share of the O & M. In a lot of those cases there is also a 
Federal obligation to pay for a portion of the O&M, which is 
our piece. And even in some cases where contractors are 
responsible for some of the O&M activity, we have to pay it 
first and then we get reimbursed, so that comes out of our 
appropriations.
    Mr. Frelinghuysen. Are some of the communities involved 
here sharing in those costs as well?
    Mr. Connor. Yes.
    Mr. Frelinghuysen. So, it is not unlike the Corps in some 
ways.
    Mr. Connor. Right.
    Mr. Frelinghuysen. People step up to the plate.
    Mr. Connor. Yes, some of our stakeholders are stepping up 
to the plate. Some of them prepay a lot of the O&M, so that is 
very helpful from an appropriations perspective. That is kind 
of the fundamental place that we start. Then we look at our 
infrastructure needs, our infrastructure programs. Beyond 
typical maintenance, annual maintenance activities, what are 
the large-scale rehabilitation activities we have to do? Dam 
safety? What are the security fortifications that we need to 
do, and what are what we call extraordinary maintenance? Things 
that we do not do on a year to year basis but over time for 
which we have to do some major rehabilitation?
    Mr. Frelinghuysen. Dam safety is a critical mass, is it 
not?
    Mr. Connor. Absolutely. Dam safety is a substantial amount 
of our $1 billion budget. This year we are in the $84 million 
range for our Dam Safety Program. We have been up to $100 
million in past years, so it has really taken an upswing over 
the last five to eight years.
    Mr. Frelinghuysen. If you had to have a pyramid, would dam 
safety be right up there?
    Mr. Connor. It is right up there.
    Mr. Frelinghuysen. Yeah.
    Mr. Connor. Operating and maintaining, those fundamental 
needs, and we look at our infrastructure needs and we do risk 
assessments and that is how we come up with our budget request.
    Mr. Frelinghuysen. So, do you have a benefit to cost ratio 
and do you do sort of a percent complete? And where do things 
like Endangered Species Act compliance come in and other 
factors?
    Mr. Connor. All right, so let me----
    Mr. Frelinghuysen. How do you put it all together?
    Mr. Connor. Let me separate those. I will kind of go 
through the different program areas and then I will talk about 
cost-benefit, schedule to completion, et cetera, which I think 
is how we look at different categories.
    So, after we get through operation and maintenance type 
activities, infrastructure needs, then we look at legal 
requirements. Legal requirements are things from the Endangered 
Species Act compliance, those things, that as I mentioned in my 
testimony, are fundamental to our water operations and power 
delivery generation. So, we need to comply with the ESA through 
those programs in order to maintain water deliveries and power 
generation.
    Mr. Frelinghuysen. But the ESA in the overall scheme of 
things is a more recent obligation, or legal obligation.
    Mr. Connor. I think more--yes. Relative to the ongoing----
    Mr. Frelinghuysen. To the traditional----
    Mr. Connor. To the traditional----
    Mr. Frelinghuysen [continuing]. View of the BOR.
    Mr. Connor. Certainly. And a lot----
    Mr. Frelinghuysen. I am not minimizing it, but there were 
historic responsibilities of the BOR----
    Mr. Connor. Which impacted----
    Mr. Frelinghuysen. We are interested in making sure, 
obviously, you keep your historic responsibilities, you know, 
primary.
    Mr. Connor. Right. It is relatively new, but I think it is 
fundamental to those responsibilities, quite frankly, the 
Endangered Species Act protection activities.
    Other legal obligations we have, which typically have tight 
deadlines to maintain, implement and successfully carry out the 
settlement as opposed to allowing it to fail. We have other 
legal obligations such as court orders, such as responsibility 
to implement drainage systems in the San Luis unit, and the--
project, so that is kind of a third area.
    Then we go to, I think, the good water management----
    Mr. Frelinghuysen. You have Indian Water Rights here, too?
    Mr. Connor. Yes, absolutely. Indian Water Rights 
Settlements are fundamental to the legal obligations that we 
look at.
    Then we look----
    Mr. Womack. My next question is more toward personnel--and 
a number of Federal agencies have shown that over the next 
decade, there will be a number of people entering retirement. 
Does Reclamation have that----
    Mr. Connor. Absolutely. We have aging. In addition----
    Mr. Womack [continuing]. Aging employees?
    Mr. Connor. An aging workforce.
    Mr. Frelinghuysen. Let me help you out.
    Mr. Connor. And it is something over time, just with 
respect to how we are staffing. Let me just put it on the 
record that our staffing level at the Bureau of Reclamation in 
1993 was 7,239. In 2000, it was 5,632. In 2004, it was 5,750. 
And in 2011, we estimate it to be 5,116.
    So, from my perspective, the Bureau of Reclamation has been 
on a downward trend as far as our FTEs. We are very cognizant 
of the need, in particularly tight budget times like this, to 
be very prudent to look across the board, not just at our 
program activities, but our administrative costs in the level 
of administration that we have.
    Now, as we move forward, the discussions that we're having 
are about the aging workforce because of the talent and 
expertise and experience we have, particularly in our Denver 
Technical Center, which supports a lot of our dam safety and 
infrastructure activities.
    But at the same time, we want to be realistic about what 
our long-term expectations are. And we are thinking 
strategically about, as people retire, what do we really need 
to do as far as replacing that expertise, and where do we think 
we might be able to rely on external contractors in some of 
those forums.
    So it is something that we have a great and deep 
experience, a talent pool that exists. But I think we have to 
recognize that budgets are only going to get tighter in the 
future. And as people retire, we will look very judiciously 
about how to replace them, and whether to replace them.
    Mr. Womack. So is it safe to say that in your succession 
planning, that outsourcing, which is the term I use; I think 
you just said ``external contractors''--some means of 
outsourcing may be part of that strategy?
    Mr. Connor. Yes.
    Mr. Womack. Okay. Any specific areas of expertise that we 
are having trouble finding in today's climate?
    Mr. Connor. I think we've done a lot of review about that. 
And I think that is a good one for me to expand on in the 
record.
    I would just say--you know, some of the expertise we have 
in dam safety, a lot of folks have been involved in 
construction of dams and the ongoing maintenance of that. And 
that is a skill level that, I think, over time there are less 
people out there.
    There has been a--just talking about our work with the 
Corps of Engineers. There has been some level of competition 
between ourselves and the Corps with respect to that talent 
pool. Rather than to handle that inefficiently, we are looking 
very closely at integrating our risk management services with 
the Corps of Engineers, and seeing if we can't partner up and 
do things a little bit more efficiently overall. But that is 
one area that I would identify that we have concerns about 
ongoing expertise. There are probably others that we have 
looked at, so if I can expand upon that for the record for you.
    Mr. Womack. Sure. I appreciate that.
    And, finally, you had indicated earlier in some of your 
programs that you evaluate risk, which is a key component of 
your decision-making criteria. I am assuming--I am sure you 
would agree--that aging personnel, and the loss of 
institutional knowledge also plays somewhat into that risk, 
does it not?
    Mr. Connor. Absolutely. Yes. And for that reason, part of 
our succession planning is not only looking to those things 
that we can possibly outsource, but also how we are developing 
younger engineers, and giving them exposure to these very 
experienced folks in trying to develop them in-house.
    Mr. Womack. Thank you for your testimony.
    I yield back.
    Mr. Frelinghuysen. Thank you.
    I read a very interesting article in the New York Times 
entitled ``Danger Pent Up Behind Aging Dams.'' I assume you saw 
that. Is the Lake Isabella Dam in California one of yours?
    Mr. Connor. Lake Isabella?
    Mr. Frelinghuysen. Doesn't ring a bell. Okay.
    Mr. Connor. It is a State dam.
    Mr. Frelinghuysen. I was interested in what they said here. 
Of the nation's 85,000 dams, more than 4,400 are considered 
susceptible for failure according to the Association of State 
Dam Safety Officials.
    How many dams are you responsible for? And how many would 
be on this watch list?
    Mr. Connor. We have----
    Mr. Frelinghuysen. I assume--this is obviously a highly 
legitimate group, I assume, that do these analyses.
    Mr. Connor. Yes. We're responsible for--and, quite frankly, 
in our data I have seen two figures, which I am still trying to 
get to the bottom of--476 dams or 480 dams. And, as I 
mentioned, a lot of those are diversion dam structures, very 
small dams, low-risk dams from that standpoint--but a lot of 
very major facilities.
    And I think, once again, we are very concerned about the 
safety of our dams. We've had this ongoing safety of dams 
program.
    Certainly Folsom Dam in California has been up there as a 
high-risk, because of the circumstances surrounding the 
Sacramento River and the condition of the facility. We are 
addressing that. I think Glendo Dam in Wyoming is another one 
we are concerned about its condition.
    And a lot of it is--our primary concerns, given the fact 
that we have done a good job, overall, of taking care of this 
infrastructure over time, are operational conditions, changes 
in information in hydrology that have affected our view of how 
those dams might perform--like Glendo Dam in Wyoming. We also 
have a dam in Utah that we are looking at.
    Mr. Frelinghuysen. Well, some are on the list that this 
article refers to. I assume there is an annual. Or, you know, 
there is a look-see by this group.
    Mr. Connor. Yes.
    Mr. Frelinghuysen. And I would be interested in knowing, 
for the record, how many are on--of the 476 to 480----
    Mr. Connor. Absolutely.
    Mr. Frelinghuysen [continuing]. To 480.
    Mr. Connor. We will get you an answer for the record. 
Reclamation currently maintains 476 dams.
    Mr. Frelinghuysen. We have heard from some of our members 
some concern about the WaterSMART grants, the type of projects 
that are being funded, that sometimes we aren't getting the, 
shall we say, the best bang for the buck.
    Can you describe the type of projects that have been 
funded? And what are some of the benefits of these projects?
    Mr. Connor. Well, the WaterSMART program, the grant program 
that has been going on for, I think, about the last five or so 
years does a lot of water conservation activities within 
irrigation districts. So a lot of opportunities to improve the 
efficiency to which we can deliver agricultural water. So canal 
linings, taking out of service open canals and having piping 
and pressurized systems, those types of activities.
    We have also had some very good municipal water 
conservation programs. We have helped support southern Nevada's 
water authorities, their very aggressive conservation program.
    So we have participated in the agricultural sector, the 
rural sector, in rural communities, as well as the large 
communities, the municipal sector.
    Mr. Frelinghuysen. So have there been some differences 
among members of Congress in these areas about the 
effectiveness of some of what we have been doing here, in terms 
of these grants?
    Mr. Connor. Well, I have heard some of the debate. I 
actually think that our WaterSMART grant program, and the water 
conservation activity that we support through it is probably 
the most successful way that we have to generate new water 
supplies.
    Over time, over that last five, six year period, with 
respect, we have invested, overall, the Bureau of Reclamation, 
$93 million in WaterSMART grants. We have leveraged $232 
million of non-Federal funding to partner up with that $93 
million. So overall, we have invested $325 million.
    And our view is that we have secured a yield of about 
700,000 acre-feet of water through the water savings activities 
associated with those grants. So that makes WaterSMART grants--
if you average it out, we are investing and paying $455 per 
acre-foot. You look at it----
    Mr. Frelinghuysen. That is a significant achievement, but 
that is one of the underlying criteria.
    Mr. Connor. That is absolutely.
    Mr. Frelinghuysen. Yes.
    Mr. Connor. So we are trying to generate water, and we are 
trying to do it as efficiently as possible. So $455 per acre-
foot. You compare that with Title XVI, which is widely 
implemented in water-short areas--because I think the water 
managers for municipal districts view that as a very good 
investment, and it is a good investment.
    But over time, we have invested $542 million in Title XVI 
projects. We have leveraged, overall, $2.168 billion in 
funding. We have got a yield of 260,000 acre-feet. And the 
total cost per acre-foot is $8,340 per acre-foot--substantially 
more than the WaterSMART grants. But still, viewed from the 
water manager's perspective, is a very good investment.
    You start talking about new storage and the cost per acre-
foot with respect to new storage--now, granted, new storage may 
be important in many basins over time. But even the Black Rock 
Reservoir in Washington State that we looked at and did a final 
EIS and feasibility study for within the last two years, that 
project was going to cost $6.1 billion for a yield of 366,000 
acre-feet. So that is $16,727 per acre-foot. So that is over--
--
    Mr. Frelinghuysen. I think you win the statistical battle.
    [Laughter.]
    Mr. Connor. Yes, sir.
    Mr. Frelinghuysen. You are the second largest producer of 
hydroelectric power----
    Mr. Connor. That is correct.
    Mr. Frelinghuysen [continuing]. In the western United 
States, with 58 power plants.
    Are you involved in the issue of who pays for what, in 
terms of those who consume that power?
    Mr. Connor. Ahh----
    Mr. Frelinghuysen. I mean some of us in the northeast grind 
our teeth endlessly about, you know, power marketing, and lack 
of competition, and things of that nature.
    Are you involved in that?
    Mr. Connor. Typically, not.
    Mr. Frelinghuysen. Because, obviously, if you are providing 
this essential service, you basically own the operation. You 
are responsible. And, you know, a lot of money has been put 
into these power plants for their upkeep.
    Assure me that you can extract for me, as you did with the 
other issue, that the people in other parts of the country 
where there is, shall we say, a more competitive environment 
are not, you know, paying for, shall we say, somewhat 
subsidized power in these areas?
    Mr. Connor. With respect to----
    Mr. Frelinghuysen. Without having a whole avalanche of 
members come on my case after this.
    Mr. Connor. [Laughs.] Yes.
    Mr. Frelinghuysen. It is a tricky area.
    Mr. Connor. I do not want to get into, you know, Bonneville 
or anything. Like my prior experience in the Senate Energy 
Committee----
    Mr. Frelinghuysen. You know, it is one of these things that 
really makes some of our blood boil, up in our neck of the 
woods, you know. I look more to the TVA than I do to you.
    But just educate me.
    Mr. Connor. With respect to--
    Mr. Frelinghuysen. Then I will go to Mr. Pastor.
    Mr. Connor. Yes, sir.
    With respect to our power operations, there are two aspects 
of it. There is the marketing of the power on an annual basis, 
which we actually do not involve ourselves in. We provide--
generate the power, we put it on the market to Western Area 
Power Administration, and Bonneville Power. And they assess the 
rates, which involves the public power piece of that, in the 
annual costs associated with paying for the electricity.
    We do, though, from Reclamation's standpoint, are still 
securing repayment of the original investment for our 
facilities--the dams and the infrastructure and the 
hydroelectric facilities, et cetera. So we have allocated the 
costs for that to our customers, and that part--that goes into 
the cost equation. So we view ourselves as receiving repayment 
over time for the initial investment in those facilities. And 
that part of the cost structure that exists.
    Mr. Frelinghuysen. So does that--is that payment really, 
how would you characterize that payment? Is it, shall we say, 
up to speed?
    Mr. Connor. Yes.
    Mr. Frelinghuysen. It is based on the original cost of 
those----
    Mr. Connor. Right.
    Mr. Frelinghuysen [continuing]. Investments. But I assume, 
if we were to continue to substantially improve the viability 
of these different power plants, through new technology and 
whatever, that would be reflective in whatever information you 
pass on.
    Mr. Connor. Yes----
    Mr. Frelinghuysen. To those who are----
    Mr. Connor. It is reflective, the initial rate structure 
and the repayment is over time, with interest. That is 
correct--on the power sector. So we are recouping that 
investment.
    But as you note, we are continually making new investments. 
We are upgrading and operating our facilities. So, another 
quick statistic. Over the last 30 years, through our efficiency 
and upgrade program, we have created an additional 1,800 to 
2,000 megawatts of capacity. That is the equivalent of a Hoover 
Dam.
    But those investments are typically paid by the power 
sector up front. Not all the time, but typically. So we are 
working with customers to get new investments to pay for those 
upgrades on those facilities, to increase efficiency, et 
cetera.
    So we do think that we are up-to-date in allocating the 
costs to the beneficiaries of the power.
    Mr. Frelinghuysen. Thank you for your response.
    Mr. Pastor.
    Mr. Pastor. I guess it is all relevant, because some of the 
customers will yell back and say they are coming too fast and 
too quick. And I will give an example.
    Several years ago we were concerned about the security of 
Hoover Dam.
    Mr. Connor. Yes.
    Mr. Pastor. And, obviously, we came--I guess you came forth 
with a plan how to secure Hoover Dam. And there were additional 
costs. And we were trying to recoup some of those costs by 
sharing some of the costs with the customers. And they were not 
happy campers I know for many years. I do not know if that 
finally settled down. But the whole security issue--and this 
happened during the Bush administration, as I remember. It was 
their Commissioner of Reclamation. And I know that many of the 
customers really had him on the hot seat.
    Where are we on this--because you did mention security----
    Mr. Connor. Right.
    Mr. Pastor [continuing]. Has a cost.
    Mr. Connor. Yes.
    Mr. Pastor. How are you doing with that one?
    Mr. Connor. Well, let me speak to that, and then I will 
talk to the security in general.
    You are absolutely correct that the situation with respect 
to security costs at Hoover Dam has calmed down because, 
essentially, Congress in 2008 capped what we could seek as far 
as reimbursement from the power users for security costs. And 
it was viewed, at a certain level, that the enactment of that 
legislation in 2008, it would increase over time with respect 
to inflation.
    So the reality is that we are continuing to evaluate our 
security needs. And some of that is guards and those types of 
costs. Some of it is infrastructure and hardening, as we call 
it, of our facilities, and investments in surveillance, and 
investments in strengthening fortification of some of our 
facilities. Some of it is increased patrols and security. That 
is an ongoing area. But what that legislation has caused us to 
do is to try and look and be as efficient as possible with 
respect to those annual security costs that we have in place.
    We are also looking, over time, at an ongoing active set of 
inspections, and monitoring with respect to security needs. So 
we continually have an updated tick-list about infrastructure 
needs, as well as reassessing the security aspects. We are 
continually doing a lot of exercises, both tabletop exercises--
just to work through who we would need to inform, how would we 
react to certain situations--to actual on-the-ground exercises 
like we had at Folsom at the end of last year, where we 
coordinated with a lot of local response, the emergency 
response personnel from both the sheriff's office, the county, 
the municipality in the area, EMTs, et cetera. Carried out the 
whole mission in an exercise that demonstrated a takeover of 
Shasta Dam in California, in a hostage situation, where there 
was an initial explosion.
    So we have exercised actual scenarios, which helps us learn 
through and improve our coordination with local law 
enforcement, with Federal law enforcement. And it is an ongoing 
process.
    Mr. Pastor. Let me go back to my second issue that I had, 
with rural water.
    Mr. Connor. Yes, sir.
    Mr. Pastor. I think you reduced the 2011 request, I think, 
by 42 percent. And it is a 71 percent reduction from Fiscal 
Year 2010.
    And does this mean that we have met our commitments to the 
ongoing projects? And can we expect a lower level of funding to 
continue?
    Mr. Connor. Well, there is $1.3 billion in backlog in our 
Rural Water Program right now----
    Mr. Pastor. Right.
    Mr. Connor [continuing]. With respect to construction. So, 
viewed on the authorizations that we have before us, and the 
expectations, I do not think folks would say that we have met 
our obligations, because of their ongoing need out there and 
that $1.3 billion backlog.
    It is--with the reduced funding levels that we had, 5 
percent below our 2011 budget, it has been a tough set of 
decisions that we have had to make with respect to funding 
levels. And I think in the Rural Water Program area, after 
going through the priorities and the needs that we have, that 
was the investment that we thought was responsible, given this 
year's budget--the $36 million--taking into account the 
obligation we have to fund O&M for some of the projects, and 
leaving some level of construction dollars available to try and 
complete Mni Wiconi, which is the priority, given how close it 
is to completing construction of that facility.
    But we also looked at this in the context of the Recovery 
Act. We initially committed $200 million of Reclamation's 
towards the Rural Water Program, and that was a terrific set of 
investments that allowed us to get over some of the real 
expensive items in some of those projects, such as water 
treatment plants. And if we can get over the water treatment 
plant investment needs, then we can work on laying pipeline and 
taking the water supply out to communities.
    So what we did, also, which was part of our calculation 
here, is not that rural water is not a priority. We looked at 
rural water in the Recovery Act and ended up investing $232 
million. So we added an additional $32 million over the last--
at the end of 2010 to increase the investment, to phase in 
certain more aspects of that project, and so that was welcome, 
certainly welcome, by those project sponsors for those many 
projects.
    But where that leaves us this year is that there was one 
area that is not funded as high as it has been in the last 
couple years. I think the $36 million figure was higher than it 
was 4 or 5 years ago, but it had gotten up, I think, in the 
2010/2011 budgets somewhere close to the $62- to $64-million 
range. So we have got to go back and assess what is realistic 
with respect to Rural Water Programs in the future as we deal 
with these reduced budgets.
    Mr. Pastor. So again, I think I heard that one of the 
deciding factors for the reduction was, again, the $232 million 
of recovery money that went to the construction of water 
plants, and so that was one of the factors in deciding for this 
reduction. Am I correct?
    Mr. Connor. That was one aspect of it. We thought we had 
made a good--a significant investment and had got ahead of 
where we thought we were going to be with several other 
projects because of the availability of the Recovery Act. But 
still, there are significant needs out there.
    Mr. Pastor. It was $1.3 billion I think I heard you start 
your----
    Mr. Connor. Absolutely, $1.3 billion is what we have as far 
as the authorized level for projects that we still have, given 
what we have already invested. That is the remaining investment 
that is out there, so that is going to be difficult to secure 
those kind of resources in this budget environment given the 
other demands on our budget. We have also got something to the 
tune of a $1.5 billion backlog for Indian Water Rights 
Settlements.
    We have got another $1.5 to $2 billion backlog for 
environmental restoration and ESA compliance activities. We 
have got a billion-dollar backlog that we have estimated with 
respect to aging infrastructure needs. We have got Title XVI 
projects, approximately a $600 million backlog of those 
projects. We have got an agency where we are viewed as critical 
to help the West address its water needs in a lot of different 
areas, including rural water. And we are trying to make the 
best investments we have within the overall funding levels that 
we can expect.
    Mr. Pastor. I am going to go back a little bit to your 
testimony and then I am going to try and connect some of your 
budget decisions. You talk about the Bureau as very active in 
climate change strategies. And I think from your testimony you 
have adaptation as one strategy and I think you have mitigation 
as another, and I will start with adaptation.
    Have you connected that, your models of adaptation 
strategy, in dealing with the increase of WaterSMART? And if 
you have, how have you used that strategy to pick the projects 
that you have decided?
    Mr. Connor. Well, I would say fundamentally up until this 
point we view, whether you look at climate change and the 
projections--some of the projections are pretty scary. You look 
at the Colorado River Basin and people are--the various reports 
out there publicly so far project a 7 percent to 45 percent 
reduction in inflow into the Colorado River System for a river 
that is already over-subscribed. If you look at projected snow 
pack reductions in the Sierra Nevada of 7 to 20 percent; 
reduction for California's primary water--natural water 
storage, the snow pack in the Sierra Nevada. Those are alarming 
pieces of data.
    But just look at drought, what we know from drought 
historically and given increasing needs. So we have looked at 
WaterSMART and other areas, Title XVI, the Conservation 
projects that we do, as just good investments for good, smart 
water management. We have not necessarily tied those to any 
specific adaptation strategies for climate change. Our view up 
until this point has been there are good water management needs 
out there. More efficiency is good to address whatever the 
challenge is, whether it is overpopulation, environmental 
needs, climate change, or drought. So those are just viewed in 
general as things that we need to support to reduce the 
oversubscription of water in the West.
    We now have very modestly in this budget, I would say, a 
more aggressive set of programs to take into account climate 
change, what is going to happen, and how to adapt to it. We are 
doing a basin studies set of programs. We are working with 
stakeholders in the basins. They are cost sharing on a 50 
percent basis to look at supply and demand imbalance basin by 
basin. We did Colorado River Basin, Yakima River Basin, Milk 
River in Montana as the initial three, and we have got six more 
basin studies going on. We are working in partnership to look 
at the imbalances projected, the limits in supply over time, 
and trying to develop specific adaptation strategies with those 
stakeholders in those basins. We are going to see the first 
reports related to specific adaptation strategies start to come 
out towards the middle and end of this year.
    We are also, under the Secure Water Act which Congress 
passed in 2009, doing an assessment, a West-wide risk 
assessment and a report on the projected impacts of climate 
changes on the major river basins that Reclamation has projects 
in across the West. And so that is going to be the first--for 
some of those basins, like the Colorado River Basin, it will 
add to the level of analysis and modeling that is already out 
there. For other basins, such as the Rio Grande or the Klamath 
or other basins, it may be the first real assessment of what is 
out there with respect to identifying risks because of climate 
change.
    So we are moving from general good water management 
activities to specifically looking at the impacts of climate 
change, trying to better understand it, and working with the 
people who will be affected by it to develop adaptation 
strategies. And we are going to start seeing that towards the 
end of this year coming out in more specificity.
    Mr. Pastor. I only have two questions. In your testimony, 
you talk about you are working with, I guess, DoE to use 
renewable energy on some of your--I am trying to find it here--
in some of your operations. You are identifying opportunities 
to address the President's clean energy goals through the 
development of new, sustainable hydropower capacity as well as 
integrating renewable energy in your operation. So I guess my 
interest is in the ``integrating renewable energy'' in our 
operation.
    Mr. Connor. Yes. We have got a very active program in 
partnership with the Corps of Engineers and Department of 
Energy. And it is involving sustainable hydro, but I am 
thinking you want to focus on----
    Mr. Pastor. Right.
    Mr. Connor [continuing]. Other renewables.
    Mr. Pastor. Right, the other renewables.
    Mr. Connor. We are looking at--you know, it is part of this 
whole energy-water nexus. How can we be more efficient? Moving 
water can create energy production opportunities. And we exist 
out in the West, where there are a lot of renewable resources, 
such as solar. So we have done things such as--as simple as, in 
our Closed-Basin Project in Southern Colorado, integrating the 
use of solar panels to create energy generation to power and 
provide some of the power for our pumps associated with 
groundwater pumping that we do in the Closed-Basin Project.
    Our WaterSMART grant programs and the Title XVI funding 
criteria--they are grant programs. There are a range of 
priorities that we look at and we score grant proposals. One of 
them is the integration of renewable energy into specific 
projects. So in one of the situations or maybe a couple in 
Oregon that we have funded is taking out of service an open 
canal, using a pressurized pipe system to deliver water to an 
irrigation district, and they have incorporated a turbine in 
that pressurized system, a 1 megawatt turbine into that system. 
So we are creating renewable energy, integrating that within 
water operations, recapturing some of the energy that is used 
to pressurize that system. That is just good, smart water 
management. And, oh, by the way, that also conserved something 
like 20 to 23 CFS of water that got dedicated to in-stream 
flows.
    We are now going back with respect to some of these 
opportunities in the Navajo-Gallup Pipeline Project--and we are 
just at the design phase there--to initiate a lot of solar 
resources, a lot of pumping stations associated with pumping 
water long distances.
    We are going to go back and thoroughly assess what we might 
do as far as distributed generation and use to offset some of 
the project needs that we have, and we will do that in areas 
associated with our projects. Our view is if we can make use 
from a financially--in a way that makes sense from a financial 
perspective and get the investments we need to integrate 
renewables into our operations, we use a good amount of our own 
project--or the hydropower that we generate, a lot of it goes 
for our own projects. If we can take some of that off, get some 
of our project power from renewable sources and take that 
offline, then we can put more power on the grid from our 
hydropower resources. So those are the type of opportunities 
that we are good at with respect to our operations and funding 
water operators to incentivize them to incorporate renewables 
into their operations.
    Mr. Pastor. All right. You mentioned--and this will be my 
last question, Mr. Chairman--Title XVI in response to my 
question. And as I recall, most of the Title XVI, the funding 
was kind of project-specific. And for many years, that was 
probably how things were funded, but now I see you converted to 
a grant program and you referred to it as converted to a grant 
program. What made you do this and what are the some of the 
criteria?
    I heard one on how you use renewable energy to be 
integrated in the project, but what--because you have had some 
longstanding projects out there for many years, Title XVI, what 
happens to them under this grant program? And other than 
integrating renewable energy, what other criteria do you use to 
provide the grants?
    Mr. Connor. Sure. I will just first mention what the 
motivation was when we had Recovery Act funding, we allocated 
$135 million for Title XVI projects. And we went through 
basically a selection process where we developed criteria that 
were specific to some of the Recovery Act items, but also more 
general water management goals that we were trying to achieve. 
That process went pretty well to allocate money to authorized 
Title XVI projects. So that was an incentive to develop a set 
of criteria that we thought were a proper way to prioritize the 
investments in Title XVI projects given the limited resources 
that we have and the backlog that we have.
    So that is why we have proposed and we have come out with 
our criteria. Now we had a Federal Register process note and 
took comments, integrated those comments, and have come out 
with our final criteria. Some of the criteria for the Title XVI 
are water supply-generated, the acre feet that you can generate 
through reuse. How sustainable is that supply? Is it going to 
be available in times of drought?
    I think that is one area where Title XVI has an advantage 
over some of our WaterSMART grants. If there is a drought, you 
do not get as much water through a canal. You do not save as 
much as you do in Title XVI where it is a more reliable supply.
    The completion schedule, so projects that are in progress 
and are near completion, we want to take that into account. 
Readiness to proceed, are the local communities available? Are 
they ready to go with the next phase? Do they have their cost 
share ready to go?
    Environment and water quality benefits associated with 
that, renewable energy integration is one. The overall cost per 
acre-foot that a project has and whether it addresses a number 
of needs from a watershed perspective is part of the regional 
partnership that addresses a lot of different problems.
    Those are--I do not know if that is exhaustive, but I think 
those are the primary factors. There may be a couple more that 
are in our criteria, but those are the kind of things that we 
are looking at in scoring the proposals that we get and making 
an intent. We have not got this program up and going yet 
because 2011 was the first time we proposed it and we have not 
yet received our 2011 appropriations, but that is our intent to 
score them against those type of criteria.
    Once again, we are talking about authorized Title XVI 
projects.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. I think there is one last question, then 
we are going to wrap up. The BoR receives $80 million annually 
from Bonneville for operations and maintenance funding. Is that 
right?
    Mr. Connor. That sounds right.
    Mr. Frelinghuysen. And over a million for small capital 
improvements and replacements?
    Mr. Connor. Yes, that is correct.
    Mr. Frelinghuysen. Is that--obviously you are pleased to 
have that money. Are there any other similar type arrangements 
with any other?
    Mr. Connor. There are. I believe now some of our O&M that 
we have obligations associated with our power facilities, and I 
think that Western Area Power Administration is now up-fronting 
some of that O&M.
    Mr. Frelinghuysen. Is it a good model for others?
    Mr. Connor. Absolutely.
    Mr. Frelinghuysen. Certainly from your perspective it would 
be, but----
    Mr. Connor. It is.
    Mr. Frelinghuysen. Yeah.
    Mr. Connor. And I think it is more efficient rather than 
have federal appropriations go and this getting paid back. I 
think the model is--particularly when these are year-to-year 
costs, it just makes more sense for them to be provided up 
front, whether it is the Bonneville Power or whether it is 
irrigation districts. And a number of them are providing us 
funding up front. We are trying to increase that and make 
that--Reclamation has done a good job----
    Mr. Frelinghuysen. That is a goal.
    Mr. Connor. That is a goal, exactly.
    Mr. Frelinghuysen. And so, for the record, would you be 
willing--would you provide the Committee at some point in time 
sort of what that landscape looked like now.
    Mr. Connor. Yes. Yes.
    Mr. Frelinghuysen. You can do that.
    Mr. Connor. I can do that.
    Mr. Frelinghuysen. And as we conclude, Mr. Murray, you have 
not had a chance, if you will pardon the expression, to get 
your oar in the water. Is there anything you would like to say 
for the record besides your statement?
    Mr. Murray. No. I would just like to thank you for your 
past support of the program and I appreciate the opportunity to 
have been here to----
    Mr. Frelinghuysen. We know Utah is front and center by the 
virtue of you being a witness today, so we will not forget 
that.
    Mr. Murray. Thank you.
    Mr. Frelinghuysen. So, Mr. Pastor and I and the entire 
Committee would like to thank you all for the work you do each 
and every day. Thank you, Commissioner----
    Mr. Connor. Thank you.
    Mr. Frelinghuysen [continuing]. Mr. Murray.
    Mr. Murray. Thank you, appreciate it.
    Mr. Frelinghuysen. We are adjourned.

    [GRAPHIC] [TIFF OMITTED] T1034A.125
    
    [GRAPHIC] [TIFF OMITTED] T1034A.126
    
    [GRAPHIC] [TIFF OMITTED] T1034A.127
    
    [GRAPHIC] [TIFF OMITTED] T1034A.128
    
    [GRAPHIC] [TIFF OMITTED] T1034A.129
    
    [GRAPHIC] [TIFF OMITTED] T1034A.130
    
    [GRAPHIC] [TIFF OMITTED] T1034A.131
    
    [GRAPHIC] [TIFF OMITTED] T1034A.132
    
    [GRAPHIC] [TIFF OMITTED] T1034A.133
    
    [GRAPHIC] [TIFF OMITTED] T1034A.134
    
    [GRAPHIC] [TIFF OMITTED] T1034A.135
    
    [GRAPHIC] [TIFF OMITTED] T1034A.136
    
    [GRAPHIC] [TIFF OMITTED] T1034A.137
    
    [GRAPHIC] [TIFF OMITTED] T1034A.138
    
    [GRAPHIC] [TIFF OMITTED] T1034A.139
    
    [GRAPHIC] [TIFF OMITTED] T1034A.140
    
    [GRAPHIC] [TIFF OMITTED] T1034A.141
    
    [GRAPHIC] [TIFF OMITTED] T1034A.142
    
    [GRAPHIC] [TIFF OMITTED] T1034A.143
    
    [GRAPHIC] [TIFF OMITTED] T1034A.144
    
    [GRAPHIC] [TIFF OMITTED] T1034A.145
    
    [GRAPHIC] [TIFF OMITTED] T1034A.146
    
    [GRAPHIC] [TIFF OMITTED] T1034A.147
    
    [GRAPHIC] [TIFF OMITTED] T1034A.148
    
    [GRAPHIC] [TIFF OMITTED] T1034A.149
    
    [GRAPHIC] [TIFF OMITTED] T1034A.150
    
    [GRAPHIC] [TIFF OMITTED] T1034A.151
    
    [GRAPHIC] [TIFF OMITTED] T1034A.152
    
    [GRAPHIC] [TIFF OMITTED] T1034A.153
    

 
                           W I T N E S S E S

                              ----------                              
                                                                   Page
Connor, Michael..................................................   147
Darcy, Jo-Ellen..................................................     1
Murray, Reed.....................................................   147
Van Antwerp, Lieutenant General Robert...........................     1

                                  <all>

</pre></body></html>
